<html>
<title> - TERROR IN EUROPE: SAFEGUARDING U.S. CITIZENS AT HOME AND ABROAD</title>
<body><pre>[Senate Hearing 114-677]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 114-677

    TERROR IN EUROPE: SAFEGUARDING U.S. CITIZENS AT HOME AND ABROAD

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             SECOND SESSION

                               __________

                             APRIL 5, 2016

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
 
 
 
                   U.S. GOVERNMENT PUBLISHING OFFICE                    
22-770 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="690e1906290a1c1a1d010c0519470a060447">[email&#160;protected]</a>  
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                  Christopher R. Hixon, Staff Director
                    Daniel P. Lips, Policy Director
           Elizabeth E. McWhorter, Professional Staff Member
             Lexia M. Littlejohn, U.S. Coast Guard Detailee
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
       Harlan C. Geer, Minority Senior Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                   Benjamin C. Grazda, Hearing Clerk
                            
                            
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Carper...............................................     2
    Senator Ayotte...............................................    18
    Senator Ernst................................................    21
    Senator Peters...............................................    24
    Senator Booker...............................................    27
    Senator Portman..............................................    30
    Senator Tester...............................................    40
Prepared statements:
    Senator Johnson..............................................    49
    Senator Carper...............................................    51

                                WITNESS
                         Tuesday, April 5, 2016

Hon. Juan C. Zarate, Senior Advisor, Center for Strategic and 
  International Studies..........................................     4
Julianne Smith, Senior Fellow and Director of the Strategy and 
  Statecraft Program, Center for a New American Security.........     6
Daveed Gartenstein-Ross, Senior Fellow, Foundation for Defense of 
  Democracies....................................................     8
Clinton Watts, Robert A. Fox Fellow, Foreign Policy Research 
  Institute......................................................    10

                     Alphabetical List of Witnesses

Gartenstein-Ross, Daveed:
    Testimony....................................................     8
    Prepared statement...........................................    74
Smith, Julianne:
    Testimony....................................................     6
    Prepared statement...........................................    68
Watts, Clinton:
    Testimony....................................................    10
    Prepared statement...........................................    87
Zarate, Hon. Juan C.:
    Testimony....................................................     4
    Prepared statement...........................................    53

                                APPENDIX

Response to post-hearing questions for the Record:
    Mr. Zarate...................................................    94
    Ms. Smith....................................................    99
    Mr. Gartenstein-Ross.........................................   104
    Mr. Watts....................................................   110

 
    TERROR IN EUROPE: SAFEGUARDING U.S. CITIZENS AT HOME AND ABROAD

                              ----------                              


                         TUESDAY, APRIL 5, 2016

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room 342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Lankford, Ayotte, 
Ernst, Sasse, Carper, McCaskill, Tester, Baldwin, Booker, and 
Peters.

            OPENING STATEMENT OF CHAIRMAN JOHNSON\1\

    Chairman Johnson. Good morning. This hearing will come to 
order.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 49.
---------------------------------------------------------------------------
    I want to welcome the witnesses. Certainly, thank you for 
your thoughtful testimonies. We are looking forward to hearing 
those and having the opportunity to ask a number of questions.
    When this hearing originally was planned, we were going to 
be talking about an issue that Senator Carper and I are also 
very concerned about: biosecurity and the threats that we face 
in that respect. With the unfortunate tragedy in Brussels, we 
thought we would, maybe, expand it. We, maybe, can still pick 
up on some of those biothreats, as well, but we thought we 
would like to hold a hearing to really take a look at the root 
causes that are driving this activity in Europe as well as to 
discuss the implications for us here in America.
    In January 2016, there was a foiled plot in Milwaukee, 
Wisconsin against the Masonic Temple by an individual named 
Samy Mohamed Hamzeh. Now, I would say this is a real success 
story on the part of the Federal Bureau of Investigation (FBI) 
and those individuals--the informants--that worked to foil that 
plot. In the complaint filed against Samy Mohamed Hamzeh--I 
just have four little sentences. They are disconnected, but it, 
certainly, reveals what is going on in the minds--or in the 
mind of an individual that actually plots to slaughter innocent 
human beings. This is what he was quoted as saying:
    ``I am telling you, if this is executed, it will be known 
all over the world. The people will be scared and the 
operations will increase. This way, we will be igniting it. I 
mean, we are marching at the front of the war and we will 
eliminate everyone.''
    Now, in his plotting, he was trying to accomplish the 
killing of 100 people. And, in the complaint, he also said he 
would be 100 percent happy if he was able to kill 30 people. 
These threats that Europe is facing--these threats that America 
is facing because of Islamic terrorists are real and they are 
growing. And, the purpose of this hearing is really to--again, 
to take a look at the root causes of those problems and to see 
what we can do here, in America, to try and keep this Nation--
our homeland--as safe and secure as possible.
    I also do have to say, on March 22, we did reach out, the 
day after the Brussels attack, to the FBI, to the Department of 
Homeland Security (DHS) and to the National Counterterrorism 
Center (NCTC) to have witnesses appear before this Committee 
today. Unfortunately, nobody from any of those Departments or 
Agencies agreed to testify, which is disappointing to me. I 
know Homeland Security Secretary Jeh Johnson is on the Hill 
today having a press conference on additional funding for DHS, 
which--listen, we want to support the Department by giving it 
the tools and the resources it needs to keep this Nation safe. 
I think, probably, a pretty good way to try and secure those 
resources would be to come before a Committee like this to lay 
out the reality of the problem. So, I am disappointed that we 
do not have a government witness--or witnesses--today, but I 
certainly appreciate the fact that you all have come here today 
and are willing to testify.
    So, with that, I will turn it over to Senator Carper.

             OPENING STATEMENT OF SENATOR CARPER\1\

    Senator Carper. Thank you, Mr. Chairman. Thank you for 
pulling this together today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Carper appears in the 
Appendix on page 51.
---------------------------------------------------------------------------
    To each of our witnesses, it is good to see you and I want 
to thank you for your preparation and for joining us on this 
occasion.
    Our thoughts and prayers remain with the families--and with 
the victims--of those who died 2 weeks ago. And, my hope is 
that something good can emerge from something awful--and this 
hearing is part of that process.
    As with the terrorist attacks in Paris, the similar attacks 
in places around the world--like Pakistan and Turkey--as well 
as the attacks in our own country--at the Boston Marathon and 
in San Bernadino--it exposes, yet again, the vulnerabilies that 
we face in public places--places that are hard to defend--
malls, trains, train stations, airports, and the like.
    With today's 24-hour news cycle, Americans are seeing these 
attacks unfold, literally, in real time. From our living rooms, 
we can see the devastation that these attacks cause and the 
pain that they inflict on the victims and on their loved ones. 
So, Americans are understandably uneasy and they are concerned 
for their own safety and for the safety of their families, 
friends, and neighbors.
    I think that it is important for us to remember that fear 
is the most potent weapon that terrorists--like those who 
committed these attacks--have. They want to scare us into 
turning against one another and turning against our neighbors 
in this country. They want to make us afraid to go about our 
everyday lives.
    We might feel a little bit safer if we saw more obvious 
security at every single public place we visit--even if that 
were possible--but those measures come at a very high price and 
do not necessarily deter terrorists, who do not value other 
lives or even value their own lives. And, many would argue--I 
believe, correctly--that turning every public place into a 
heavily guarded fortress would restrict Americans' own personal 
freedom--even if we could afford to do so.
    Instead, we need to be smart about how we combat these 
ever-evolving terror threats. We must continuously sharpen our 
ability to predict and prevent terrorist plots through the use 
of our robust intelligence and law enforcement capabilities and 
through our ability to share information.
    Refining these tools and ensuring that we keep pace with 
the evolving threats we face are important responsibilities for 
our Federal agencies, for Congress, and for the folks at the 
local level as well. We have a responsibility, along with our 
international partners, to continue to take the fight to the 
Islamic State of Iraq and Syria (ISIS)--and to many other 
places.
    ISIS's recent losses have been severe. It has lost at least 
40 percent of the territory that it once held in Iraq. 
Coalition forces have killed more than 10,000 ISIS fighters and 
20 key ISIS leaders in recent months, including ISIS's chief 
propagandist and executioner. And, just over a week ago, 
American forces carried out a strike that led to the death of 
ISIS's finance chief and second in command.
    Simultaneously, we continue to enhance the capabilities of 
the Iraqi counterterrorism forces. Iraqi forces captured Ramadi 
from ISIS just 2 months ago. And, a battle to seize the ISIS 
stronghold in Mosul is well underway. And, with the cease-fire 
in Syria holding so far, more guns are being turned on ISIS. 
ISIS is being pushed back on its heels in Iraq and in Syria.
    Consequences may very well be that the group, out of 
desperation, will seek to project the facade of power and 
momentum by directly inspiring terrorist attacks against 
unprotected targets in Europe, in the United States, and in 
other places around the world. We must not let these cowardly 
acts deter our resolve. To the contrary, we must redouble our 
efforts to destroy ISIS and to take away its safe havens. We 
must also learn from the Brussels terror attack to ensure that 
our intelligence and law enforcement authorities, at all levels 
of government, are ready and able to identify and stop similar 
attacks--both here at home and in other places--before they are 
set in motion.
    I just want to mention one last thing. There are lessons to 
be learned from what happened--the tragedy in Brussels--lessons 
for people who live there, for people who live in Belgium, for 
people who live in the European Union (E.U.), and for people 
who live in other places--and there are lessons for us to learn 
too. And, for us, this means the need to better understand what 
happened there and to figure out what we can do to deter 
attacks--not just here in this country, but to help them better 
defend their own people in their own places.
    Thank you so much.
    Chairman Johnson. Thank you, Senator Carper.
    It is the tradition of this Committee to swear in 
witnesses, so if you will all stand and raise your right hand.
    Do you swear the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Zarate. I do.
    Ms. Smith. I do.
    Mr. Gartenstein-Ross. I do.
    Mr. Watts. I do.
    Chairman Johnson. Please be seated.
    Our first witness is Juan Zarate. Mr. Zarate is chairman of 
the Financial Integrity Network (FIN), chairman of the Center 
on Sanctions and Illicit Finance for the Foundation for Defense 
of Democracies (FDD), Senior Advisor at the Center for 
Strategic and International Studies (CSIS), and Senior National 
Security Analyst for CBS News. Mr. Zarate.

 TESTIMONY OF THE HONORABLE JUAN C. ZARATE,\1\ SENIOR ADVISOR, 
         CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Zarate. Chairman Johnson, thank you very much for that 
introduction. Ranking Member Carper and distinguished Members 
of this Committee, thank you for inviting me to testify today. 
I am honored to be here with my fellow panelists to discuss the 
current terrorist threat environment in Europe and the security 
implications for the United States.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Zarate appears in the Appendix on 
page 53.
---------------------------------------------------------------------------
    In the wake of the horrific attacks in Brussels and Paris, 
this is a critical moment to take stock of, what I consider to 
be, the quickening terrorist threat and adaptation spurred by 
the Islamic State of Iraq and Syria, along with the continued 
threat from and intent by, al-Qaeda and its affiliates to hit 
the West.
    The rise and reach of ISIS has continued to outpace 
expectations and surprise authorities. Dangerously, failing to 
understand and anticipate ISIS's intent and capabilities has 
led to some misguided assumptions that have now been shattered 
in the wake of the recent attacks in Europe. ISIS has intended 
to confront the West. It has used Western operatives, flowing 
into the conflict zone by the thousands, and it has attempted 
to inspire singular attacks by sympathetic radicals in Western 
societies. It has built these capabilities over time and has 
taken advantage of intelligence and security gaps to implant 
operatives in Europe.
    This should not have come as a surprise. Over 2 years ago, 
my colleague at CSIS, Tom Sanderson, witnessed parts of the 
foreign fighter pipeline when he visited a shabby cafe at a 
Turkish-Syrian border crossing. This was a final stop for those 
slipping into Syria to join terrorist groups. Passports were 
for sale and such fighters could exchange their passports for 
cash. At that time, a Belgian passport was for sale for $8,000. 
A buyer could have it 
altered--and new passport photos were being snapped in the 
parking lot.
    European authorities are now coming to grips with the 
realization that ISIS is targeting the heart of Europe with 
dozens of operatives. But, unfortunately, Europe suffers from 
three fundamental and interrelated terrorist problems. First, 
there is the immediate threat of ISIS's European networks. ISIS 
has trained and deployed Europeans back into the heart of 
Europe to perpetrate sophisticated attacks.
    Second, ISIS and al-Qaeda have taken advantage of 
longstanding radicalized networks in Europe as a baseline for 
recruitment and plotting in the heart of Europe, relying on a 
lineage of radical Islamic terrorism to tap into criminal, 
prison, and other radical networks for their purposes.
    Third, Europe suffers from longstanding deep pockets of 
radicalization affecting their nationals and embedded in 
particular communities and neighborhoods. Throughout Europe, 
such nodes of radicalization have served as micro-safe havens 
and they persist in particular prisons, universities, and 
apartment blocks.
    Now, ISIS has been able to take advantage of the weaknesses 
and seams in the European system. Even the best authorities in 
Europe are overwhelmed by the number of new and historical 
terrorists and radicalized individuals for whom they need to 
account. Fortunately, the United States has not faced the same 
kinds of threats from ISIS and al-Qaeda that Europe does--but 
these threats are real for U.S. citizens and for interests 
abroad and in the homeland. Let me just describe them quickly.
    The most immediate threats to the United States are to our 
citizens and interests in Europe. ISIS would like to target 
Americans wherever possible. The visa-free travel permitted for 
Europeans and others creates a gap that could, unknowingly, 
allow an 
ISIS or an al-Qaeda operative into the country. The lack of 
information--and real-time information--sharing are major 
impediments to Western security. The United States also has to 
be concerned about the demonstration effects of successful or 
attempted terrorist attacks--especially in the West.
    And, new technologies and methodologies could spur 
innovation in how terrorists and operatives operate in the 
United States--to include new technologies that allow lone 
wolves to act as packs to attack the homeland.
    And, finally, the most strategic impact of the European 
threat, perhaps, is whether it, ultimately, weakens or 
strengthens European resolve and capability to counter the 
terrorist threat from ISIS and al-Qaeda as well as the 
radicalized citizens from within.
    We need a strong Europe and we need to work together with 
them. We are facing a common enemy and we are all at war 
together. The United States must, therefore, work closely with 
its European partners to enable, support, and lead where 
necessary. We must also work to disrupt ISIS's and al-Qaeda's 
safe havens, gather and share intelligence, disrupt terrorist 
networks and plots, and continue to build layers of defense 
with our Western partners.
    In the wake of the terrorist attacks in Brussels, this is 
an important moment to reflect on our counterterrorism 
capabilities--and we need to do this in concert with our 
European partners. And, we should never underestimate the 
ability of our terrorist adversaries to innovate and to adapt--
especially when they have time and space to plot and to plan.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Mr. Zarate.
    Our next witness is Julie Smith. Ms. Smith is a senior 
fellow and the director of the Strategy and Statecraft Program 
at the Center for a New American Security (CNAS). Previously, 
she served as the Deputy national security advisor to the Vice 
President. Before her post at the White House, she served as a 
principal director for European and the North Atlantic Treaty 
Organization (NATO) Policy in the Office of the Secretary of 
Defense in the Pentagon. Ms. Smith.

 TESTIMONY OF JULIANNE SMITH,\1\ SENIOR FELLOW AND DIRECTOR OF 
THE STRATEGY AND STATECRAFT PROGRAM, CENTER FOR A NEW AMERICAN 
                            SECURITY

    Ms. Smith. Thank you, Chairman Johnson, Ranking Member 
Carper, and Members of the Committee. Thank you for the 
opportunity to testify this morning. It is an honor to be here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Smith appears in the Appendix on 
page 68.
---------------------------------------------------------------------------
    The Brussels attacks revealed a number of worrisome trends 
and policy gaps inside Belgium, across Europe, and among the 
transatlantic partners. Any successful strategy moving forward 
is going to require changes in all three of those categories 
and I want to address each of them, one by one, over the course 
of the next few minutes.
    Let me start with Belgium. The attacks, as Juan pointed 
out, have confirmed what experts have been stating for years--
and that is that Belgium has one of the largest home-grown 
extremist problems in the West. Five hundred Belgians have 
traveled to Iraq and Syria in recent years and 20 percent of 
those individuals now have returned to European soil with 
sophisticated training and unknown intentions.
    The Brussels and Paris attacks also revealed a number of 
intelligence and law enforcement shortfalls and failures. These 
are, primarily, rooted--in part--in incompetence, but also in 
crippling budgetary constraints and severe personnel shortages. 
Belgium also has not had a functioning Federal system for some 
time now, so its ability to uncover and dismantle jihadist 
networks has been severely hampered.
    In terms of wider Europe, Belgium, of course, is not facing 
this challenge alone. Preventing the radicalization of Muslim 
minorities across Europe has become a priority for a number of 
European countries over the years. But, the tools with which 
national capitals can actually counter radicalization, slow 
recruitment, or arrest terrorist operatives has suffered from a 
chronic lack of investment over the years.
    Europe's most glaring problem, though, is its inability to 
share information among its member states. This was highlighted 
by the fact that one of the three bombers in the Brussels 
attacks was someone that Turkey had actually warned the 
Belgians about, in advance, as they were deporting him to the 
Netherlands. Unfortunately--and rather tragically--that 
information was not followed up on and it was, certainly, not 
disseminated across the European continent.
    From a transatlantic perspective, we also need to 
strengthen our transatlantic cooperation with the E.U. and 
other European countries. We have done a lot since the attacks 
on September 11, 2001 (9/11). We have done a lot to ensure that 
we can halt terrorist financing. We have worked together to 
enhance our intelligence sharing. We have worked to safeguard 
border controls. But, serious gaps remain.
    Most notably, the primary obstacle surrounds the 
differences that we have over privacy, data sharing, and data 
privacy. These concerns, obviously, were more pronounced after 
the 2013 revelations that the National Security Administration 
(NSA) had been tracking a number of world leaders--most 
notably, German Chancellor Angela Merkel--and these differences 
have hampered the E.U.-wide implementation of the Passenger 
Name Recognition System, which would enable us to enhance our 
intelligence sharing.
    Going forward, obviously, Belgium is going to have to make 
a lot of changes--Europe, as well, but we also have to focus on 
the transatlantic relationship. From a Belgian perspective, 
they are going to have to undertake a complete audit of their 
security procedures. They are going to have to overhaul their 
surveillance laws. I think they need to review the security 
staff at major transportation hubs. And, certainly, they are 
going to have to invest more in their very small security 
budget.
    Europe also is going to have to do more, from an E.U. 
perspective, but the individual member states that make up 
Europe--all of them are going to have to do more to invest in 
their own security and they are also going to have to address 
the grievances and the isolation of the Muslim minorities 
inside of their borders.
    But, I would also urge our European friends not to view 
this strictly as an internal challenge. They tend to focus on 
homeland security measures and counter-radicalization efforts, 
but we have to ensure that Europeans are working with us in far 
away places, like the Middle East and North Africa, which, by 
the way, are not that far away from European soil. So, for that 
reason, I would urge more Europeans to join us in the anti-ISIS 
coalition. Some are already doing so over Iraq and Syria. But, 
they should also think about how they can do more to invest in 
the future of the region.
    Lastly, in terms of E.U.-U.S. cooperation, we have to get 
past our differences on data protection and privacy. I think, 
as Juan pointed out, this is going to require significant U.S. 
leadership. I know some, occasionally, urge the United States 
to pull back and withdraw from Europe, but, to be frank, this 
is a threat that we face together and the biggest card we have 
to play is E.U.-U.S. counterterrorism cooperation.
    Thank you very much.
    Chairman Johnson. Thank you, Ms. Smith.
    Our next witness is Daveed Gartenstein-Ross. Mr. 
Gartenstein-Ross is a senior fellow at the Foundation for 
Defense of Democracies, an adjunct professor in Georgetown 
University's Security Studies Program, and a lecturer at the 
Catholic University of America. He is also the Chief Executive 
Officer (CEO) of Valens Global, a consulting firm focused on 
the challenges posed by violent non-state actors. Mr. 
Gartenstein-Ross.

    TESTIMONY OF DAVEED GARTENSTEIN-ROSS,\1\ SENIOR FELLOW, 
             FOUNDATION FOR DEFENSE OF DEMOCRACIES

    Mr. Gartenstein-Ross. Thank you, Chairman Johnson, for that 
introduction. Ranking Member Carper and distinguished Members 
of the Committee, it is an honor to appear before you at this 
very grave time.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Gartenstein-Ross appears in the 
Appendix on page 74.
---------------------------------------------------------------------------
    We have had, obviously, in a span of about 4 months, two 
major attacks strike Europe. It is a watershed for a variety of 
reasons, one of which is that this is the first time that a 
European jihadist network has succeeded in, not only carrying 
out one major attack, but then bearing the brunt of the law 
enforcement resources being drawn down upon it to then succeed 
in carrying out a second major attack.
    If you look at what has been said following the Brussels 
attack--about the scale of the network--it is striking. You 
have investigators saying that only now, 4 months after Paris, 
are they starting to get their heads wrapped around this 
network. You have, according to recent Wall Street Journal 
reports, about 22 members of this network who are still at 
large. Now, other media outlets have not been able to verify 
that specific number, but it seems to be roughly accurate.
    One analogy I use a lot to describe the problem of trying 
to combat terrorist and militant groups, is that of start-up 
firms versus legacy industries in the economic sphere. I use 
this not to be cute or trite, but because I think it explains 
something about the ability to innovate, the ability to adapt, 
and the problems that we have in dealing with these kinds of 
organizations.
    Today, it is very clear that start-up firms have some 
inherent advantages over their larger competitors. They are de-
bureaucratized. They are able to innovate quickly. They are 
able to shift their strategy very quickly, while larger firms 
are often encumbered by their own weight, have too much 
bureaucracy, and are unable to maneuver at the same kind of 
speed as their smaller adversaries.
    Julie, I think, did a very good job of talking about the 
kinds of incompetence and problems that occurred and helped to 
allow the Brussels attackers to succeed. When we go back 
through 
them--and it is important to do so--one thing that looms large 
is bureaucracy--the lack of internal coordination--an 
organizational structure that is not suited well for the 
challenges of the 21st Century.
    According to open source reporting, one thing that may have 
allowed Salah Abdeslam to be free as long as he was, was 
Belgian restrictions on what time raids can occur. You had 
other instances where intelligence was not acted upon, like the 
fact that Ibrahim El Bakraoui--one of the suicide attackers at 
the Brussels airport--was not picked up after Turkish 
authorities revealed that he had been arrested in Gaziantep, 
which is a major entryway into Syria that foreign fighters 
frequently use. That, obviously, as the European officials now 
indicate, should have raised a red flag.
    So, what to do about this? In the short term, Europe needs 
to deal with the scale of the problem that it has--not just 
this one network, but authorities have been all but waving 
their hands around and saying that they are overextended. In 
Belgium, just before this attack, basically, all of their 
resources amongst investigators and detectives were used to try 
to deal with their jihadist problem. Likewise, in France. 
Likewise, in Britain. There are many indications that this 
problem has overwhelmed the system.
    In the short term, Europe should be encouraged to undertake 
a much more disruptive policing model. A good example is from 
the United States and our own experience with the mob. Al 
Capone, who was the U.S.'s first celebrity criminal, was 
ultimately arrested, indicted, and convicted, not for being a 
mobster, not for being a killer, and not for being a 
bootlegger, but, rather, for not paying taxes on his illegal 
income. It was said that, under Robert Kennedy's Department of 
Justice (DOJ), they would arrest a mobster for spitting on the 
sidewalk.
    Ultimately, finding lesser offenses is important. And, 
within European jihadist networks, which are identifiable and 
under surveillance, there is often financial fraud and other 
small crimes that they can pick people up for. This is not, 
ultimately, a perfect solution, but, in the short term, where 
we have had these two major attacks and have more would-be 
attackers--who are at large right now--I think that it is very 
important to disrupt and then bring down the networks that you 
are trying to monitor.
    In the longer term, looking at the problems I raised with 
bureaucracy are very important. There need to be reforms within 
the E.U., including within countries. And, we also need to be 
very much apprised of those that affect the United States. This 
is a very unique time, because the Schengen Agreement has all 
but fell apart. And, in the past, the Europeans' interpretation 
of Schengen has detracted from and served as a barrier to our 
own measures, which we have tried to take to uphold our own 
border security.
    We need to understand just how much the system is in play 
right now. We need to recognize, as Senator Carper said, that, 
perhaps, something good can come from something awful--and that 
something good can be us pushing for the necessary reforms--
both within Europe and also in the transatlantic relationship--
to better protect our own homeland.
    Thank you.
    Chairman Johnson. Thank you, Mr. Gartenstein-Ross.
    Our final witness is Clint Watts. Mr. Watts is a Robert A. 
Fox fellow in the Foreign Policy Research Institute's (FPRI's) 
Program on the Middle East and a senior fellow with its Program 
on National Security. Mr. Watts has served as a U.S. Army 
Infantry Officer, an FBI Special Agent on the Joint Terrorism 
Task Force (JTTF), and as the executive officer of the 
Combating Terrorism Center (CTC) at West Point.
    First of all, thank you for your service and thank you for 
your testimony.

 TESTIMONY OF CLINTON WATTS,\1\ ROBERT A. FOX FELLOW, FOREIGN 
                   POLICY RESEARCH INSTITUTE

    Mr. Watts. Thank you. Thank you, Chairman Johnson, Ranking 
Member Carper, and Members of the Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Watts appears in the Appendix on 
page 87.
---------------------------------------------------------------------------
    In 2012, many researchers and I watched as thousands of 
young men flocked to Syria to join the ranks of those fighting 
against the regime of Bashar al-Assad--and most of those 
eventually coalesced around the Islamic State of Iraq and 
Syria. I, personally, along with others, flew with lists of 
names of Europeans that we knew were operating there--because 
all you had to do was watch them on Twitter. They told you they 
were there. Not only did they tell you, they flaunted it. They 
would turn on their location beacon as soon as they got to 
those countries, to let everybody know they were there.
    We have known that these boys were there for a long time. 
And, we should have known--and we did know--they were always 
going to come home. This problem was not probable--it was 
inevitable. And so, we are now flat on our face. And, while we 
talk about disrupting ISIS recruitment, it has already 
happened. It is over. 
We are now on the defense. We are reacting, rather than 
preempting--and that is a position we never want to be in.
    So, today, the situation in Europe is such that we have 
terrorists operating without borders and we have 
counterterrorists operating with all borders. ISIS has done, in 
Europe, what al-Qaeda never did. In one year, they have 
achieved a level of violence al-Qaeda could not achieve in 10--
and they can do that because they have a volume of foreign 
fighters, passport holders, E.U. citizens--or people who have 
resided there--who have traveled together and cemented the 
longstanding relationships they had in their homelands in 
disparate communities. And, they have traveled to Syria and 
Iraq and gained unprecedented combat experience. We always heap 
credit on old al-Qaeda members. They did not see nearly the 
same number of battles that these new ISIS boys have seen--and 
they have brought that experience home.
    Not only are they more connected socially than 
ideologically, they are more criminal than they are pious. And 
so, they have fewer reservations about committing violence and 
they operate with an autonomy we never saw with al-Qaeda. al-
Qaeda tends to micromanage their recruits. ISIS does not. They 
issue a little bit of what we in the military, call commanders' 
intent. They pick targets that they know well. They do not pick 
large symbolic targets. They hit a soccer stadium or a 
transportation hub they know. And, they plan those plots and 
put them together almost--it seems like--at random--and they do 
it aggressively and quickly.
    They move faster and communicate more freely than our 
counterterrorists do in Europe. And so, when we look at the 
situation we have today, with the counterterrorists, we have 
them operating on all borders. They are way over capacity. They 
cannot follow all of the leads for every ISIS member that might 
be returning to Europe.
    Not only that, but they also have uneven capability. 
France, the United Kingdom (U.K.), and Germany--they all have 
significant experience and a lot of specialty, in terms of 
counterterrorism and intelligence, but that is not shared with 
a lot of these smaller countries. Belgium is the prime example, 
but many others have had foreign fighter recruits, like they 
have never seen, come from their country. And, at the same 
time, they have much more of a limited capacity to deal with 
these. They do not have specialties. They have a lot of rules 
around intelligence sharing, information sharing, and data 
privacy that prevent them from doing both technical collection 
and human intelligence the way we would do it here in the 
United States.
    So, when you look at this patchwork that we have, in terms 
of the bureaucracy, there is no ``heavy.'' There is no FBI-type 
apparatus. Europol and Interpol are great and they do excellent 
coordination and research, but they cannot step across borders 
as fast as the terrorists can. And so, the terrorists have run 
wild through Europe today.
    My fellow panelists up here today have talked about the 
dangers to Americans abroad, but I would tell you that the most 
dangerous result, really, of this situation is that every 
success that ISIS has in Europe breeds more success here at 
home. A successful attack in Paris, Istanbul, or Brussels 
inspires an adherent here in the United States, who maybe has 
no connection to the Islamic State or al-Qaeda, to start to 
move forward. We have seen that with San Bernadino, a 
Philadelphia police shooting, and, maybe, even with the 50 
plots that our FBI has disrupted since then. Success breeds 
success. And so, every time we stand by and watch Europe suffer 
an attack, it only inspires people at home.
    So, while we should look at a lot of defensive measures, in 
terms of what we can do to protect American citizens abroad, I 
would tell you we have to go on the offense, in Europe, the way 
we did, here, after 9/11. I would push to help the European 
Union put together a counterterrorism task force--not a 
committee, not a hearing, and not another bureaucracy, but an 
aggressive approach--now. We are looking at what I call the 
``iceberg theory'' of terrorist plots. For every eight you see 
participating in a plot, there are three or four times as many 
that are helping support it or are somewhere in that network. 
We saw that with Paris and then it extended to Brussels.
    The other thing we can really help out Europe with, is 
intelligence sharing--both pushing them and then helping them 
to integrate their own systems.
    And, the last part, I would say, is better risk assessment 
and travel warnings for our American citizens. We tend to issue 
travel warnings after an attack happens. But, we could sit 
right now and tell you where the foreign fighters are that are 
in these European countries, where are the targets that have 
been hit, and which ones are most likely to be hit--and I think 
that is a service we should make sure to provide to our 
citizens.
    Thank you for having me.
    Chairman Johnson. Thank you, Mr. Watts.
    I want to start with you because you mentioned, I think--
the key point here is most of the testimony has been talking 
about being on defense. You talked about going on offense. But, 
even in talking about going on offense, you are talking about 
having America go on offense to help Europe be on defense. I 
want to talk about actually going on offense.
    I want to talk about the fact that you said that this has 
been building in Syria and Iraq and that it was inevitable. 
And, as we watch the events unfold here--and yes, we are 
pushing ISIS back in Iraq, but they are gaining territory in 
Syria. They are setting up a stronger base in Libya. They are 
getting into Afghanistan. We are having Boko Haram and other 
terrorist organizations affiliate themselves with ISIS. This is 
growing.
    I want to talk about an effective offense--and again, I 
want to just give some evidence here. There is a Department of 
State (DOS) report called the Study of Terrorism and Response 
to Terrorism (START) Report. And, let me issue this caveat: I 
realize these statistics are very uneven. But, if you take a 
look at the years prior to 9/11, on average--and this is the 
largest measure, on average--there were less than 5,000 
fatalities due to terrorism prior to 9/11. In 2012, that report 
shows there were about 15,000. In 2014, there were about 
43,000. Again, I realize the measurement is very difficult on 
this, but it gives us some indication that global terrorism is 
a growing threat.
    And so, if we are all going to just be on defense, I do not 
see how we can succeed. I mean, just speak about what 
constitutes a real offense to wipe out this threat and how long 
is it going to take to do so.
    Mr. Watts. What I would say is that I do like how we are 
approaching counterterrorism with a lot of these affiliates 
already. We have already started to take action against the 
ISIS in Libya. That is the second most important affiliate that 
is out there.
    We will have to pursue special operations force attacks, 
aggressive Joint Terrorism Task Force investigations here in 
the States, and robust intelligence sharing across Europe, 
North Africa, and the Middle East for as long as we live. 
Everybody in here will have to do that. We will have to watch 
that. This will not go away. There is no beginning and there is 
no end. There is only degrees of winning and losing.
    So, I think the notion that we need to put forth, both in 
our country and, particularly, in Europe--who seems to only 
react to these situations--is that a constant offense is the 
only way to keep terrorists on the defense.
    I would say that foreign fighter task force tracking is the 
most essential thing we should be doing--and that we should 
have done. This is what I call countering terrorism now from 
the third foreign fighter glut. We had a massive ingress of 
foreign fighters to Afghanistan. That later mutated into al-
Qaeda 20 years ago. We then had a massive ingress into Iraq and 
Afghanistan in the last decade. That, eventually, mutated to 
become the al-Qaeda/ISIS split.
    And now, we are looking at ISIS being squelched in Iraq and 
Syria. There will always be some sort of militant organization 
there, because we cannot restore any sort of governance--or we 
have no plan for it. And, therefore, this will mutate into what 
could be a more dangerous scenario--one which is not al-Qaeda 
or ISIS. Those are just Washington terms we sort of throw 
around on the Cable News Network (CNN) because it gives people 
a label to use to understand it.
    We very well may be facing five to seven regional terrorist 
nodes across the entire world that have varying degrees of 
connection. They communicate and cooperate when they need to--
and then they do not. They may choose different parts of the 
ideology to pursue, mostly based on local political 
environments.
    But, the one thing that you can look at, across all of 
these regions, is a lack of governance. We thought the Arab 
Spring would bring about an opportunity for democracy to grow--
and as a 
democratic nation, for some reason, we really helped everyone 
to vote, but we never helped them after they voted. And so, we 
have safe havens stretched all of the way from Western Africa 
to Southeast Asia, at this point, where they can operate.
    The ISIS label--they will pick up that label and use it 
whenever it is convenient for them. If they think they can pull 
in money or recruits, they will. But, they will pursue their 
own objectives. The dangerous part for us is when they pursue 
their own objectives, it creates a capacity and capability 
problem for us, in the United States, and for the globe as an 
entirety. How do we track that many threats, which are out 
there, if they spread?
    Chairman Johnson. When we witnessed ISIS just roll up the 
cities in Iraq, that to me indicated an organization that is 
pretty strategic.
    Mr. Watts. Absolutely.
    Chairman Johnson. It had a game plan and they were able to 
execute that game plan. That is no fly by night operation. That 
is just no junior varsity (JV) team. Now, they are setting up 
training centers. And, they are training youth and they are 
training the next generation. Can anybody speak to the real 
danger there?
    Mr. Watts. What I would say is that this is going to happen 
routinely, because there is a lack of governance. There is no 
opposing force. And so, we have gotten into a situation where 
we did clear, hold, and build--let us deploy massive military 
force in the last decade at great expense, which, ultimately, 
created a security vacuum in itself--and we have retreated to 
the other end, which is hoping that drones and special 
operations forces will keep everyone down and sort of keep this 
problem at bay.
    In between--in the middle--is the question of how we work 
with foreign nations and proxies. And, if you look at our 
competitors around the world, they are picking their proxies as 
they see fit to pursue the interests they want. Our greatest 
problem in the United States, in terms of counterterrorism, is 
we do not really know what we want. All we know is that we do 
not want anything bad to happen. And, if all you know is what 
you do not want, you will never get what you do want--and we 
have not picked out 
what our strategic objectives are. So, we are constantly in a 
patchwork--moving and chasing.
    The one thing I do like is that we are pursuing the threat. 
I think that it is a great testament to our counterterrorists, 
who, over the past 15 years, have gone where the threat is. Our 
special operations forces have pulled off amazing feats in 
recent months. But, that alone will not get us there. We will 
always be vulnerable until we pick out where we want the focus 
to be.
    Right now, I think that Libya--and North Africa, 
generally--are places that we need to be very concerned about. 
That will be a natural expansion point for them. I think that 
Yemen is another big area of concern as well.
    Chairman Johnson. Mr. Zarate, very quickly--Mr. 
Gartenstein-Ross talked about the difference between big 
bureaucratic organizations and small start-up companies. I am 
from one of those small start-up companies and know exactly 
what you are talking about. It was easy to compete against big 
companies.
    In your testimony, you talked about the innovation of 
ISIS----
    Mr. Zarate. Yes.
    Chairman Johnson [continuing]. And, one of my concerns--and 
I want you to speak to this--is we know that two of the 
terrorists involved in Brussels--in their apartment we found 
surveillance videos of a nuclear facility. Can you speak to the 
dangers of that and what might be on their minds there?
    Mr. Zarate. Absolutely, Mr. Chairman. I think one of the 
dangers that you see with the ISIS is that they have been 
adapting new methodologies very quickly. And so, in the field--
in places like Iraq and Syria--this includes the use of tunnels 
and multiple sophisticated attack prongs as part of their 
attack vectors. It also includes the use of chemical weapons, 
with reports just today of another chemical attack against some 
of our allies on the ground. And, certainly, there is a real 
question as to whether or not they have ambitions to engage in 
weapons of mass destruction (WMD) terrorism. The reality is 
that they have set up a unit to develop chemical weapons 
capabilities. They are obviously using it, now multiple times--
--
    Chairman Johnson. They have the labs--really sophisticated 
labs at universities to access----
    Mr. Zarate. That is right. And, Mr. Chairman, just to touch 
on the conversation you were just having, I think that one of 
the major differences between the safe havens of today and the 
safe havens of the past is that we are not talking about the 
jungles, mountains, deserts, and the hinterlands of the safe 
havens of old that we worried about. We are talking about real 
cities--real urban environments--the second largest city in 
Iraq and Mukalla in Yemen, which is controlled by al-Qaeda in 
the Arabian Peninsula. These are real cities with real 
resources, real populations, and real financial systems--all of 
which they are taking advantage of--to include universities' 
labs, scientists, and experts--much of which we are blind to.
    And, I think one of the major dangers we have to keep in 
mind is that the safe havens and the ink blots that are 
emerging that are tied to the ISIS are qualitatively 
different--and that is leading to strategic innovation. And, 
you have seen this, not just in the context of WMDs, 
potentially, but you have also seen it with even naval attacks 
in Egypt. You saw it with the attack on the civilian aircraft 
out of the Sinai. And so, you are going to continue to see 
adaptations to the extent that they have fighters to train, 
resources to apply, space in which to plan, and leadership that 
is intent on attacking the West.
    Chairman Johnson. And, by the way, that is the offense that 
I was talking about--taking those resources--that territory--
away from them. Senator Carper.
    Senator Carper. Thank you so much.
    This is an exceptional panel of witnesses. Thank you so 
much for joining us. And, some of you have been before us 
before, but we are delighted that you are here today.
    I spent a number of the years of my life in the Navy. I 
remember being in Southeast Asia. In the office of the 
commanding officer of our squadron, there was a cartoon up on 
the wall and the cartoon was a depiction of a man on a very 
small island trying to climb up a single tree surrounded by 
alligators. And, the caption under the cartoon was, ``It's hard 
to remember that your job was to drain the swamp when you are 
up to your eyeballs in alligators.''
    Our friends in Europe are up to their eyeballs in 
alligators and we are trying to help them help themselves. How 
do we go about draining the swamp? Root causes--just spend a 
minute, each of you--a minute discussing root causes, please. 
Mr. Zarate.
    Mr. Zarate. Senator Carper, I think, first and foremost, we 
should be very open and honest about where these pockets 
of radicalization have existed. These are not new in Europe. 
Neighborhoods like Molenbeek--neighborhoods in the U.K., like 
Luton--have developed radicalized environments and ecosystems 
that have allowed radical clerics to recruit and have allowed 
pipelines of generations of radicals to continue to be enlisted 
and mobilized.
    And so, first and foremost, identifying what are the those 
hot spots--because, if you look at a map, whether it is in 
Europe or even in North Africa, you will see that there are 
particular--not just countries and not just regions--but also 
neighborhoods or particular segments of communities that are 
the most at risk. If you look at the neighborhood of Tetouan, 
out of Morocco, it has produced the bulk of foreign fighters 
over the years, dating back to the Iraq War. And so, there are 
these pockets that need to be identified--and, in many ways, 
then, focused on for law enforcement and intervention purposes.
    Then, you have the general problem of integration and 
assimilation. This is a problem that is only going to grow 
worse in Europe, given the refugee crisis. And so, working with 
European authorities to understand how they can best--and how 
we can help them--integrate these populations better, so that 
you do not have a new generation of radicals emerging out of 
these refugee populations.
    Senator Carper. OK. I am going to ask you to hold it there, 
just so the other witnesses have a chance to respond.
    About one minute, if you will, Ms. Smith.
    Ms. Smith. The integration challenge is enormous. A lot of 
these Muslims, in Europe--there are about 13 million--came in 
the 1960s and 1970s to respond to a labor shortage. Many of 
them did not expect to stay. They have. Now, we have second and 
third generations in these communities. They have several 
grievances. They do not have access to educational 
opportunities. They face discrimination. Unemployment is very 
high in their communities. And so, the nature of the challenge 
is enormous--and this is not just, as I noted, in Belgium, but 
in several countries across Europe.
    What makes this particularly challenging right now is the 
fact that European public opinion of Muslims is worsening. 
European citizens, as you well know, are incredibly worried 
about their own employment numbers and about their own 
opportunities. They have had a complete loss of faith in 
institutions like the European Union. And so, you have seen the 
rise of these populist parties that are actually more 
discriminatory. They are more anti-immigrant.
    So, just as European governments need to double down on 
these integration programs, you are finding a resistance and 
pushback from European society. I cannot stress how challenging 
this is going to be.
    Senator Carper. Thank you very much.
    Mr. Gartenstein-Ross. I find that, when looking to answer 
questions like this, it is often useful to look at it through 
the eyes of the adversary. So, if we take an enemy-centric 
perspective, if I am ISIS or al-Qaeda, and I am trying to grow 
larger and stronger in Europe--the first thing this panel has 
remarked on is weak law enforcement, which allows me to operate 
transnationally and to operate fairly openly. They do not have 
the surveillance resources to cover the network.
    Second, given the integration problem that was just 
mentioned and this massive influx of migrants, who will also 
have trouble integrating, just as the problem already exists, 
there is the potential for recruitment there--especially if you 
can trigger a nativist backlash. We are, of course, already 
seeing that nativist backlash. Every time you carry out an 
attack, that increases hostility toward the Muslim population. 
And, as ISIS has said, they want to destroy what they regard as 
the gray zone--that zone between ISIS and the European 
population where European Muslims can exist.
    The final thing I will mention about looking over at 
European politics is--one of the things that is happening with 
the rise of far-right parties is that other parties are not 
addressing these issues. When you see the discursive 
environment to the worst of the worst, they are the ones who 
are going to seem like they speak to people's concerns. So, I 
think, understanding why they are rising is an important part 
of understanding this very dangerous environment that exists 
within Europe.
    Senator Carper. Thank you. Mr. Watts.
    Mr. Watts. I would say that we cannot fix European politics 
or the integration problem. And so, I would, instead, focus on 
why it is attractive to these young men--and some women--to 
join ISIS. And, I would focus on two messages. One, can you 
turn the ISIS and its leaders into villains, rather than 
martyrs? And, that really is about how you change the 
narrative, in terms of how they are perceived by those people 
that are seeing it.
    The second one is the message that the leading killer of an 
ISIS member is a fellow ISIS member. Right now, we are watching 
defectors flee from Syria and Iraq. They are killing the 
defectors, internal spies, or people that are starting to ask 
questions about the direction of the group. I think it is 
important to put that into the minds of those young people. 
They are believing one narrative. You need to offer them 
another one, which is more full of truth.
    So, I would instead focus on the Iraqi allegiants that are 
within ISIS, who are very much pushing away the foreign 
fighters now and not giving much respect and fellow rights to 
their foreign fighter brothers. The question is, how can you 
drive a wedge between them?
    I would focus on defectors and their messages, when they 
come back from the Islamic State. There are a lot of them right 
now talking about what happened to them when they were in Iraq 
and Syria. It was not the fantasy that they had had in their 
minds.
    And then, I would absolutely publish the silly and 
pointless deaths of every European foreign fighter. They use 
them to settle personal scores and for suicide bombings against 
local adversaries. That would not be a Google search that would 
happen in one of those hotspot communities.
    And, I would add to that, 80 percent of the towns that 
foreign fighters come from, today, are the same towns that 
produced foreign fighters in Afghanistan in the 1980s and in 
Afghanistan and Iraq 10 years ago. I have them on my own 
computer. I could tell you what those 20 towns are. So, it is 
not a matter of, like, not knowing where to go for the hotspots 
in Europe. It is just about whether we are actually going to 
push to do something in those places.
    Senator Carper. Mr. Chairman, if I could, I just want to 
ask a yes or no question to each of the panelists.
    Homeland Security Secretary Jeh Johnson has been before us. 
And, one of the initiatives that he is pushing is a 
partnership, really, with Muslim communities to counter violent 
extremism (CVE) in our country. Our Committee has reported out 
legislation--bipartisan legislation--to support this issue. Is 
this, in terms of responding to, potentially, the root cause in 
this country--is this a smart policy to pursue or not? Mr. 
Zarate.
    Mr. Zarate. I think, absolutely, and, in fact, we have 
established a commission at CSIS, led by former UK Prime 
Minister Tony Blair and former Secretary of Defense Leon 
Panetta, to look at precisely this issue and to provide policy 
guidance on it for the next administration. So, it is 
absolutely right. These are issues--not just of safe haven 
abroad, but also questions of identity and dislocation.
    And, one thing we need to look at--and this was something I 
was going to mention with your last question--the last element 
is family and networks. We find that family and networks are 
critical to the support of extremism as well as to counter it. 
And, it is often family members that are able to intervene and 
we are not finding ways of enlisting them aggressively enough.
    Senator Carper. My time has expired. Ms. Smith, just 
briefly.
    Ms. Smith. Absolutely. I think it is critical for us to 
pursue those types of programs here in the United States--but 
we also need to work with our European partners. We face 
different challenges, but we can share lessons learned and see 
what works and what does not.
    Senator Carper. Thank you. Mr. Gartenstein-Ross.
    Mr. Gartenstein-Ross. Yes, with the caveat that a lot of 
the early efforts will certainly be awkward and faltering. So, 
some of the benefit will be learning from what does not work.
    Senator Carper. Alright. Thank you. Mr. Watts.
    Mr. Watts. I would not put much effort into it, to be 
honest. I have worked on a lot of those programs over the past 
10 years. There is some value in building trust with the 
communities--that I do respect. But, I do not think they are 
going to be a great weapon in thwarting recruitment. 
Communities--these people are already disenfranchised from it. 
And, parents are the worst ones when it comes to knowing what 
their teenage kids do. That is true whether you are in the 
United States or Europe. So, I think it is good for community 
policing purposes, just in general, but I do not think it 
really will get at the problem. I think it is a tangential 
effort.
    Senator Carper. Thank you so much. Thank you all.
    Chairman Johnson. Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. I want to thank the Chairman. This is an 
excellent panel.
    But, let me just say, the fact that we had a major 
terrorist attack in Europe and we cannot get, before this 
Committee, an official from the Department of Homeland 
Security, the FBI, or the NCTC, to me, speaks volumes. If this 
Administration thinks they are doing a good job fighting ISIS, 
then come and make the case before this Committee. So, I want 
to back the Chairman up on the point that he made, I think, 
very respectfully, earlier.
    I would like to ask each of you--one of the things that I 
heard coming from you all, loud and clear, is about the lack of 
intelligence sharing in Europe and the problems we have as a 
result of that lack of intelligence sharing. As you know, we 
have 38 countries that are a part of our Visa Waiver Program 
(VWP). And, to be part of that program, you have to, 
essentially, meet certain basic standards of information 
sharing. You have to enter into an agreement with the United 
States to report lost or stolen passports and, most 
importantly, you have to have an agreement with the United 
States to share information regarding whether a national of 
that country, traveling to the United States, represents a 
threat to U.S. security.
    As I hear your testimony today, I see a huge, glaring red 
flag, because, at the end of December, we passed a law here--
which I was glad we did--that, essentially, said that 
individuals who had traveled to Iraq, Syria, and Iran--and 
also, now the Homeland Security Secretary has added some other 
countries, like Libya, to that list, which I support--but here 
is the problem.
    If we do not have good information sharing, as highlighted 
by what happened in Belgium, we can put that in place all that 
we want, but, if we do not know that someone traveled to Iraq 
and Syria--in fact, if you look at what happened with Paris, 
obviously, one of the individuals had come over from Greece and 
had a fake passport. We also know now, with the situation in 
Belgium that, in fact, the information that came from Turkish 
authorities was not properly acted upon. So, I would have to 
think that they were not exactly sharing that information with 
us, if they were not acting upon it fully, themselves.
    So, what does this mean, in terms of what we should be 
doing to protect our citizens, with the lack of information 
sharing? Obviously, it needs to be a priority for us to start 
information sharing between us--and the transatlantic 
relationship--and to promote better information sharing among 
Europe. But, I think our citizens need to understand--what do 
we need to do to protect our citizens to make sure that someone 
does not travel to Iraq and Syria and we are unaware of it 
because the information has not been shared--and then, is able 
to travel to the United States without a visa?
    Mr. Zarate, do you want to comment on that.
    Mr. Zarate. Senator, those are great questions and very 
important concerns. I think, as you mentioned, you have the 
problem of the lack of information sharing, the lack of real 
time information sharing, the lack of details of the 
information, as well as gaps of information just generally. 
And, I think you have seen that the terrorists have adapted 
around this and they understand it. So, they are infiltrating 
some of the refugee flows. You have seen, from some of the 
plotters in recent attacks, that they have used methodologies--
returning into Europe using backpacker routes, so as to avoid 
connections back to the countries of concern.
    So, I think there are really two things we need to do. One, 
is we have to engage in self-help. We have to gain more 
intelligence on our own. We have to be aggressive about what we 
are doing, on the ground, in these places, as well as along the 
routes that we expect the foreign fighter pipelines to be 
operating. The Turkish-Syrian border--we know exactly where 
that strand of border is, where they continue to move in and 
out. I am hoping and expecting that we are on that like hawks, 
trying to get as much information as possible about people 
moving in and out of there and understanding, then, where else 
they are flowing to.
    Second, I think we need to spur the Europeans to work more 
closely together. And, I think that means we have to collect 
them together--whether it is at a clinch point in a task force 
model or in some other fashion.
    Senator Ayotte. One of the things I called upon--when this 
happened, is I asked President Obama to bring NATO together. Do 
you not think NATO could be a helpful avenue to, at least, 
bring the NATO members together?
    Mr. Zarate. NATO could be, but what you need are the 
intelligence services that focus on counterterrorism. And, 
again, the French and the British are very good at this. The 
Germans are very good. What you need is some mechanism to knock 
heads--and there is something to the fact that passenger name 
records, in a transatlantic way, are shared on a real time 
basis, but passenger name records are not shared within the 
European Union. So, just think about that. We have developed a 
protocol to understand where there are suspect actors trying to 
access the commercial aviation system. Europe does not even 
have that internally.
    So, in a sense, we are going to have to catalyze a lot of 
this innovation and a lot of what my fellow panelists have 
talked about. We are going to have to do it--and we have to 
take a leadership role--frankly, like it or not, because we 
have vulnerabilities of the type that you describe, Senator.
    Senator Ayotte. Yes, Ms. Smith.
    Ms. Smith. Senator, that is an excellent question. I would 
just add to that that the United States has a number of 
bilateral relationships. So, the cooperation we have with 
Europe is completely uneven. There are some that are wonderful 
and others that are in complete disrepair--and we have to bring 
everybody up to the same standard.
    There are improvements that need to be made to our 
intelligence sharing with Europe. The emphasis should be put on 
Europe and sharing inside of the continent. The fact that they 
are not going to move forward with an E.U.-wide implementation 
of the Passenger Name Record (PNR) directive until our election 
is ridiculous. They are waiting to see who the next President 
will be in order to get our views on intelligence, when they 
need to move out on this, yesterday. And so, we should push 
them not to wait for our election, but to advance this agenda 
as soon as possible.
    I mean, journalist David Ignatius, in a recent piece, 
really put it best. The Europeans are very interested in our 
intelligence, for all of the obvious reasons, but they have 
this real distaste for collection--and we have to break past 
this and break through it to say, ``enough is enough.'' We need 
to make progress on these issues and to work through these 
issues on data privacy and data sharing.
    Senator Ayotte. I see Mr. Watts wanting to comment over 
there--and you also made a statement, in your testimony, about 
how you believe we need better warnings, as well, based on what 
we know.
    Mr. Watts. Yes. I think one thing the United States can do 
for the European Union is--we just spent a decade building the 
National Counterterrorism Center with all of these integration 
functions and doing intelligence sharing both up and across. 
So, we do it from the Federal level, to the State level, to the 
local level and we know how to manage that and push it--and we 
know how to do that with partners and in the interagency 
context.
    I think that is something that we can help them to do--and 
I think it is how we develop those relationships. They are all 
bilateral. So, why should we, as the United States, provide the 
French and the British the same intelligence individually? They 
need to, somehow, synchronize their systems. Maybe, we can 
offer a way for them to do that or provide support to them, in 
a way, to do that.
    My fear is that European countries do not want to deal with 
their data privacy issues and their collection issues until 
they have an attack. So, how do we communicate that to them? Is 
there a way we can say, ``Look, this is the risk profile for 
you, Denmark, as a smaller country.'' I am speaking 
hypothetically. ``This is what you are facing. Do you want to 
wait to see what happens? Or, do you want to come into this 
intelligence? ''
    So, I think, is there a way we can work with all of those 
countries--Germany, Denmark, and all of those--to come up with 
a brokered way to get to the solution? I do not know that that 
can be achieved, but that is what has to happen, because, right 
now, they are just having one-off exchanges based on one piece 
of intelligence and that never will allow you to put together 
the full picture. We saw that with Belgium and France.
    Senator Ayotte. I know my time is up. I did not want to 
leave the Doctor out. Is it OK for him to----
    Chairman Johnson. Yes.
    Senator Ayotte. Thank you.
    Mr. Gartenstein-Ross. Since the question was about the Visa 
Waiver Program and ensuring our own borders, I would just point 
out that U.S. Customs and Border Protection (CBP) is, 
ultimately, the last line of defense. When you have a situation 
where the search of somebody does not correlate with Iraq, 
Syria, and Libya, etc. it, ultimately, comes down to the 
counterterrorism response team.
    So, one thing I would put some focus on is whether or not 
the counterterrorism response teams that CBP has have enough 
resources. Do they have the training that they need to 
undertake the kind of human intelligence collection that they 
are performing at the border to see if somebody is suspicious? 
And, moreover, do you have enough professionalization and 
enough incentives to get the best and the brightest to stay in 
that program, as opposed to going to another Agency? That, I 
think, is something that is entirely appropriate for Congress 
to look into.
    Senator Ayotte. I thank you all for your answers and I 
would just say, based on what you said, I think that we have to 
take the leadership role here. I do not know of another country 
that will be able to bring everyone together and get them to 
act.
    Chairman Johnson. Thank you, Senator Ayotte.
    While we are on this topic, I just want to quickly ask a 
very simple question, because, the theory is that, under the 
Visa Waiver Program--there are 38 countries that are a part of 
that program right now--that there is a threshold level of 
information sharing that should be sufficient. Does anybody 
want to express an opinion--are all of those 38 countries--are 
they at that threshold level or should we be really seriously 
taking a look at putting some of them on probation--or really 
evaluate that? Just very quickly.
    Mr. Zarate. I think it is worth reviewing--especially in 
light of the recent attacks. I think we should look at Belgium. 
There is no question about that, given that the highest level, 
per capita, of foreign fighters are coming from Belgium--with 
their own difficulties with information sharing internally--and 
some of the deficits. I think it is wholly appropriate to look 
at some of these countries--without prejudice, obviously--being 
sure to understand the deep economic, social, and diplomatic 
importance of the Visa Waiver Program. But, I think, a healthy 
review--and some skepticism--is worth it.
    Chairman Johnson. Does anybody else want to quickly chime 
in on that?
    Mr. Watts. I would agree. And, I do not know what the level 
of all three countries are, but, I would say that we should 
start with the countries that have the most foreign fighters 
per capita. That is right where I would begin--and then, move 
down the list from there.
    Chairman Johnson. OK. Thank you. Senator Ernst.

               OPENING STATEMENT OF SENATOR ERNST

    Senator Ernst. Thank you, Mr. Chairman. And, thank you to 
all of you for joining our panel today. This has been very 
helpful, I think, for all of us.
    As I have noted before in my capacity on the Senate Armed 
Services Committee, I do share the concerns that have been 
expressed by General Philip Breedlove, as well, about the lack 
of support for force protection measures for servicemembers, 
the Department of Defense (DOD) civilians, and their families--
and just a couple of examples of that. The U.S. military 
recently ordered military family members to exit Turkey. We 
have a State Department that ordered the departure of family 
members of staff at a U.S. Consulate. And, recently, the wife 
of an Air Force officer was killed in the Brussels attack.
    So, if we can focus just on Belgium for a moment, reports 
are suggesting that the DOD has about 1,300 military personnel 
and dependents as well as about 600 civilian employees in 
Belgium, which, of course, we all know, is home to NATO. And, I 
would like to start with you, Mr. Watts, please, and then, if 
the rest of the panel could answer, as well. Do you share my 
concern--and General Breedlove's--about U.S. force protection 
in Europe? And, what do we need to do to make sure that force 
protection is adequate? And, how do we move forward on that?
    Mr. Watts. I would start off--in terms of concern, I am 
concerned, in particular, for one big reason. So, we have seen 
two big attacks in Paris and Brussels. And so, now, 
counterterrorism forces are out aggressively. We also know that 
there are, as Daveed mentioned, other parts of the network that 
are still at large. And so, if you are a terrorist and you 
believe that you are being closed in on, what do you do? Well, 
you rapidly put together a hasty attack. There is no target 
better than a military person deployed overseas--and we saw 
that with, I believe that it was two airmen that were killed in 
Germany at an airport. That is a target of opportunity.
    And so, if you are either an inspired recruit or someone in 
the network that knows that you are on your last few minutes, 
this is a great target of opportunity. The same is true for 
embassies and consulates. So, I think there is a huge risk for 
that, as these investigations progress. If they cannot operate 
as cells or as groups the way they have in the past, they are 
going to pick targets of opportunity. Maybe, they pick 
Europeans, but the most vulnerable, I think, the most targeted 
U.S. people, are going to be State Department employees and 
Department of Defense employees. So, I think it is a concern--
and we know the network is there and we know they are going to 
look for targets of opportunity as things get tougher.
    In terms of how you protect them, it is extremely 
challenging. You really have one of two options. You can try 
and protect them in place--which is very difficult to do--and 
so, you put more active defense measures in place. This means 
increasing diplomatic security, surveillance, and those sorts 
of things. It is very tough to do.
    The other option is that you remove them from those 
countries. And so, when you talk about removing 1,300 
servicemember's families from those countries--that is a major 
signal and it also has impacts in Europe. We believe, then, 
that Europe is insecure. And, it creates a ripple effect.
    So, I do not know that I have the right answer as to what 
to do, but I do think we can start risk forecasting much better 
than we are doing currently. Now, we kind of wait for an attack 
to happen and then we say, ``Oh, OK. There is, like, something 
bad out there. Travel warning.'' It is, like, ``Great. I am 
already here.''
    In a lot of these countries, we know where these foreign 
fighters are coming from. Like, we could map that out as a risk 
forecast and, literally, put it out and say, ``Here is the risk 
of traveling in these nations based on the number of foreign 
fighters, the capacity we assess the European countries at, in 
terms of counterterrorism and law enforcement''--which also 
sends a signal to them--and then where we have seen attacks--
what are high-traffic attack locations? We have seen the 
subways. We have seen popular Western venues. This looks a lot 
more like what we used to see in the Middle East or North 
Africa--hitting targets of opportunity where there are lots of 
Westerners.
    I think we can, indirectly, send some signals to Europe by 
setting up our own assessment--and I would make it public. I 
would have a map that says--just like you see with disease 
control maps. It would be, like, ``These are the places that we 
are worried about the most.'' And then, the Europeans will 
figure out, on their own, that they have their own problems as 
well.
    Senator Ernst. That is very good. And, I would like to hear 
from the other panelists, as well, if you would.
    Yes, Mr. Zarate, please.
    Mr. Zarate. Senator, thank you. I would look--to Clint's 
point, I would look, not just at risk mapping, but also at 
intelligence gathering around surveillance of family members 
and soft targets that are tied to military personnel, because, 
I think I would not worry so much about the hardened bases and 
other sites around which we have security that we can flex 
aggressively if we need to. Those are always targets--but 
terrorists have a hard time executing attacks against those.
    I worry more about the soft targets outside of those rings 
of security. And, understanding where the terrorists may be 
surveilling and doing a lot of counterintelligence in some of 
these locations, I think, is really important in order to 
understand the specific risks around personnel and family 
members.
    One other note. Keep in mind that, from a cyber 
perspective, what some of the followers and adherents of ISIS 
have tried to do is to expose military personnel and their 
family members with personal data, addresses, etc. And so, 
there is a very real effort underway to at least threaten, if 
not put at risk, family members and personnel outside of the 
bounds of classic security. So, we have to be quite conscious 
of that and counter it if we can.
    Senator Ernst. Very good. Thank you.
    Does anyone else wish to respond?
    Mr. Gartenstein-Ross. Yes. I would echo these concerns. 
And, piggybacking on what Juan said, I think that one of the 
emerging tactics that ISIS, in particular, is trying to use is 
stalking and killing its foes--especially those who are 
affiliated with governments--basically taking them out of the 
government sphere, making them individuals who can easily be 
tracked.
    And, when I was in Germany, fairly recently, at the base in 
Stuttgart, I saw servicemembers in contravention to regulations 
leaving the base still wearing their uniforms. That is a 
concern.
    I think that making family members and members of the 
military aware of a few things is important. One, is just basic 
online security, something which is definitely drilled in 
within these institutions. Making them aware of how much 
information they are giving off on social media. A lot of the 
information ISIS had when it put out addresses of the 
servicemembers on their kill lists was just easily gleaned, not 
from hacking, but by going to people's social media accounts 
and finding out this information about them.
    But, ultimately, I think this is a very high-level concern 
that fits both with what the organization has done and also the 
direction that it is moving, in terms of its evolving tactics.
    Senator Ernst. Well, I appreciate that very much.
    I know my time is expiring. When my husband was serving in 
Saudi Arabia in the late 1990s, he was considered a combatant 
commander--or, excuse me, part of a combatant command. And, 
members of those--or those family members could not live in 
Saudi Arabia at that time. However, he had, next door, in the 
next set of quarters over, a non-combatant commander. But, 
those families could live there and it was ironic to us. I do 
not think terrorists distinguish between who is a combatant and 
who is a non-combatant in situations like that.
    But, I do think this is something the United States needs 
to take very seriously and we need to make sure that we are 
protecting our servicemembers as well as our civilians serving 
overseas. So, thank you very much for being here today.
    Chairman Johnson. Thank you, Senator Ernst. Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman. And, thank you to 
the panelists. I found, so far--and I am sure I will continue 
to find--this hearing very interesting and we appreciate your 
expertise.
    I would like to pick up on some questions that Senator 
Carper relayed, regarding the community. And, what we have 
seen, certainly, in the attacks in Paris and Brussels, is that 
the individuals that are involved were homegrown. These folks 
were radicalized in their own country, went off, in some cases, 
to be foreign fighters, and came back. You have already talked 
about some of the conditions in those European neighborhoods 
that these individuals are exposed to.
    Given the fact that we also have very vibrant Muslim-
American and Arab-American communities here in the United 
States--in Michigan, my State, in particular--could you comment 
on what you see as the differences between the United States 
and Europe? And, what lessons--because we, thankfully, have not 
seen those types of incidents here in our country--what lessons 
can be learned from the United States that may be helpful to 
the Europeans? What is happening here? Is it different? And, 
elaborate on why that could be a good lesson for others.
    Let us start with Mr. Zarate.
    Mr. Zarate. Senator, thank you. Fortunately, I do think 
there is a difference. First, there is a difference in numbers. 
If you look at the per capita number of radicalized 
individuals, be it cases brought by the FBI or foreign fighters 
who have gone to fight in a variety of foreign terrorist 
conflicts, the numbers are quite low per capita, in terms of 
the United States.
    In terms of foreign fighters in the most recent context of 
Syria and Iraq, we are looking at probably 200 or so. Now, 
given that we do not have full information about foreign 
fighters--and, in fact, that American who recently turned 
himself in to the Kurdish authorities and who was then played 
on video, I think, was not known to U.S. authorities. And so, I 
think we do not have a full picture, but the numbers are much 
smaller than the number that we see in Europe, which is in the 
thousands.
    Second, our Muslim-American communities are incredibly 
diverse, they are spread geographically, they are well 
integrated, and, historically, they have done incredibly well 
socially and economically. If you look at the figures, in terms 
of per capita income, the numbers are very high. And, in 
general, the notion of integration has been very natural and 
organic in the American context.
    The last thing I would note is that the very notion of an 
American identity as a common form of definition of individuals 
and communities--the fact that anyone from any race, creed, or 
religion can call themselves an American--be they first 
generation or 12th generation--that is incredibly powerful. 
And, the notion, I think--and several social scientists have 
pointed this out--that there is actually sort of gravity to the 
idea of the American dream--the American ideal is actually a 
counterweight to the counter narratives of these terrorist 
groups and even the dream of the Islamic caliphate, which is 
animating so many to fight in Iraq and Syria.
    And so, the one thing I would argue for America is that we 
make sure we recognize that--that we embrace our diversity and 
we tackle the challenges in communities, like the Somali-
American community, where you have seen a higher percentage of 
individuals going to fight. And, we ensure that we do not have 
the ghettoization--or even the sense of targeting and the 
ghettoization of the Muslim-American community or any other 
community. That is a bedrock of American power and identity 
and, frankly, it will hold us in good stead against this 
ideology.
    Senator Peters. Thank you. Ms. Smith.
    Ms. Smith. Thank you, Senator, for that very good question. 
Juan is exactly right. I agree with him 100 percent. Just to 
stress one point on identity, we benefit here, in the United 
States, from the fact that it is very easy to have a hyphenated 
existence. You can be Irish-American, Muslim-American, 
Scottish-American, whatever it might be.
    And in Europe, the problem is that these migrants that have 
arrived--many from North Africa--feel neither French nor 
Moroccan, for example. So, they have been in this country--many 
of them were born there--but they do not feel a part of society 
and there is no path for them forward to integrate into these 
societies.
    So, it makes them very susceptible to someone who comes 
along, either over social media or in a coffeehouse, to say, 
``I have an identity for you. This is where you belong. Come 
join us in the Islamic State. This will be your home, because 
France is not your home and you are not going to go to Morocco, 
either--or Algeria or wherever it might be. And so, let us 
provide that sense of identity to you.'' And, that is an 
entirely different challenge than what we have here in the 
United States.
    That is not to say that we do not have folks that are 
susceptible to radicalization, but it is a very different 
challenge than what we see on the other side of the Atlantic 
Ocean.
    Senator Peters. Alright. Thank you.
    Mr. Gartenstein-Ross. And, you can see some of this bear 
out, statistically. It has been a few years since I looked at 
statistics about demographics within the Muslim-American 
community, so this might be a little bit dated, but the last 
time I looked into this, the average Muslim had a higher level 
of education than the average American. The average Muslim in 
the United States also had a higher level of employment and 
socioeconomic status, which speaks to relative levels of 
integration.
    I would also caution--I mean, I think that there are 
lessons that Europe can learn from the United States, but the 
United States is fairly unique in its identity as being a 
nation of immigrants. I mean, I travel the world a lot--as does 
everyone on this panel--and I cannot think of many other 
societies--other than Canada, where you do not have integration 
problems--and I do not mean Muslim integration problems, but 
from any sort of class. Just, in general, throughout the world, 
you have a much more rigid set of identity than we have in the 
United States.
    And so, I would not think of it as there being a quick fix, 
in terms of lessons from America. Rather, I see this as being a 
systemic problem that will be with us, I think, for decades to 
come--that most countries do not integrate new populations the 
way the United States has been successful in doing.
    Senator Peters. Alright. Thank you. Mr. Watts.
    Mr. Watts. I would like to shift just a little bit to show 
why Europe's problem is now worse than ever and then compare it 
to us. So, the best recruiter of a foreign fighter is a former 
foreign fighter. And, that is about the physical relationship--
the way you recruit people in your ranks. It is the same in the 
States. They always say the best recruiter of a Marine is a 
former Marine. There is that indirect channel that you come 
through and that is built on physical relationships. That 
motivates you. That gets you going.
    And, right now, Europe has what is called ``bleed out,'' 
foreign fighters leaving Syria and Iraq that are ``bleeding'' 
back into Europe. At the same time, they have this other 
problem with the inspired folks, who I call ``bottled up.'' So, 
they want to go to Syria and Iraq, but they can no longer do 
that. And, you have these catalysts--former foreign fighters 
working with inspired recruits--and we see this in the Paris 
and Belgium attacks. It is almost half and half. You have some 
foreign fighter veterans and some inspired recruits that are 
working together--and that is the worst case scenario. They are 
in these disenfranchised communities.
    We are lucky here in the States. We do not have the foreign 
fighters coming back the way that we see in Europe, and most of 
our recruits are virtual recruits. Probably 90 percent of them 
are online. They do not have a direct connection with it. They 
work to build a connection with the group. That takes longer, 
it is more difficult, and you get a different style of recruit. 
They are more ideological in recruitment, whereas those 
neighborhoods are more social in terms of their recruitment--
and this is a different dynamic that plays out.
    So, we are lucky that--with the exception, possibly, of 
Minneapolis, which was mentioned before--we do not have that 
same dynamic here. This allows us to detect them online as well 
as on the ground much faster. They send off signals that are 
easier to detect in many ways, whereas, in Europe, they have a 
huge problem. A lot of the recruitment is never seen by law 
enforcement or intelligence because it is happening face to 
face on a one-on-one basis.
    Senator Peters. Alright. Well, thank you. I appreciate all 
of your responses. If I could summarize it, it sounds as if we, 
certainly, have to be vigilant. We have to have strong 
intelligence and make sure that we are being offensive in our 
actions. But, ultimately, the strongest shield we have are our 
American values and the special place we hold as a nation of 
immigrants, where everyone can come and have the opportunity to 
pursue the American dream. If we ever let that slip, then we 
truly are vulnerable. Thank you.
    Chairman Johnson. Senator Booker.

              OPENING STATEMENT OF SENATOR BOOKER

    Senator Booker. Thank you. Again, thank you for this 
hearing.
    Mr. Watts, I am a little--you said something that seemed 
like you were sort of downplaying the effectiveness of CVE--of 
efforts to counter the propaganda. Do you think that that is 
not the most fruitful of pathways?
    Mr. Watts. I do not believe that most of the CVE efforts 
that I have seen, at least--comparing the States and Europe is 
a little bit challenging, but, I believe, it is an indirect way 
to sort of get at the motivations that are driving these young 
people. Part of the reason, I believe, they can be recruited is 
because they are living in disenfranchised communities. They 
are not connected to the community. And, they are not connected 
socially--or at least not with their parents. They are not 
listening to what their parents are saying a lot of the time.
    We just saw, I think, 2 weeks ago, a situation where a 
mother in Europe found out that her son was in ISIS because the 
records were divulged online. She did not know until a 
newspaper essentially contacted her. So, parents are not really 
good at knowing what their children are doing. That is just 
normal.
    And also, these communities, they seem to not be aware--or 
they are not on board--in terms of preventing this. So, I think 
it is a good effort for a lot of reasons--regarding violent 
extremism, but also just building relationships with 
communities to break down those borders between them. But, if 
you want to get at the problem of radicalization and 
recruitment right now, you have to change--and this is where we 
come to the communications part of it--the sort of mindsets and 
the narratives. You have to change how they view opportunities 
to become a jihadist. Jihadists are fickle. Foreign fighters 
are extremely fickle recruits.
    We watched al-Qaeda recruits online for years. They heard, 
``You should go to Yemen.'' They would go to Yemen until things 
were going well in Yemen. Then, we saw Mali. It was, ``You 
should go to Mali.'' That lasted about 3 days, until the French 
invaded. Most recently, it was, ``You should go to Syria.'' 
That has gone on for 4 years because ISIS had been successful. 
That narrative was not propaganda, it was truth. ``We are 
advancing on these cities in the way our strategy said we 
would. We are achieving success. We are building the State.'' 
As soon as we start to erode that--and I think that is 
happening now--you start to see fewer recruits and less 
affinity for it.
    But, I think the key is to focus on the individuals and why 
they want to join, rather than trying to go through the 
community. I am not sure they are the best lever for it. I 
would rather change the image than the method.
    Senator Booker. So, I have a couple of thoughts. So, 
clearly, we are eroding territory in Syria----
    Mr. Watts. Yes.
    Senator Booker [continuing]. And, in Iraq right now, which 
is undermining some recruitment efforts.
    You are really taking CVE efforts and separating them into 
two buckets. The first bucket is this communication with family 
members, trying to create better networks within Muslim 
communities--as opposed to just the propaganda that they are 
feeding these young people--trying to make sure that we are 
countering that propaganda with our own--exposing them for the 
frauds and the shams that they are.
    Mr. Watts. Yes.
    Senator Booker. Is that right?
    Mr. Watts. Yes, I think of it as a funnel. So, usually, we 
talk about vulnerable, radicalizing, and committed recruits. 
There are many more at the vulnerable stage. These are the 
communities we want to reach out to. That is where a community 
program, like you suggested, might be focused.
    There are the radicalizing recruits. These are people we 
know are already connected to foreign fighters. They look like 
they are mobilizing. They are taking on the image and the talk 
of those that they want to join.
    And, then, there are the committed recruits. These are guys 
that are either trying to carry-out an attack at home or are 
trying to make their way to Syria and Iraq.
    I would focus more effort at the bottom of the funnel.
    Senator Booker. Right. So, that is law enforcement--and I 
agree that that is where most of our resources are. But, you 
are telling me that you do not have much confidence in the 
efforts of former freedom fighters--excuse me, former 
radicalized folks--who have come back and who have now 
converted back to sanity--in engaging them to tell the truth to 
others who are in the second part of that funnel.
    Mr. Watts. I am a big fan of them. And, that is why I would 
focus those efforts toward the radicalizing members. What I am 
not so interested in is engaging this massive vulnerable 
audience, where we try and--I call it pushing the ``Let us buy 
the world a Coke'' message--where we try and say, ``Let us 
reach out to you. We will build stronger communities. We can 
integrate and we can solve some of your problems.'' I feel like 
those are good programs to have regardless, but it is important 
to focus on defectors, to focus on atrocities, to focus on 
crimes that are happening in Iraq and Syria, and to focus this 
toward the radicalizing audience.
    Sometimes, we get one part right, but we are not focusing 
it in the right place. So, I would rather look at those that 
are closely connected to foreign fighters and their 
communities. And, that is where I would aim that message.
    Senator Booker. Ms. Smith, do you want to add to that?
    Ms. Smith. I would just note, I guess, I have a slightly 
different view. You need multiple lines of effort, obviously. 
You have the military angle. You have law enforcement. But, I 
think we do have to invest in some of these CVE measures. 
Ultimately, the research shows that, to pull someone off of the 
path of radicalization, you have to give them an alternative 
path. They have to have a network of individuals that they 
trust and a mom, a teacher, a parent, or a neighbor that can 
persuade them to make the right choice. And, they have to, 
obviously, have some element of doubt about going down this 
path.
    But, I think some of the CVE measures that have been 
launched to date are trying to do just that--to provide a 
network of individuals that can lay a hand on someone as they 
are wavering. Obviously, some folks are too far along to pull 
back from radicalization. But, for the young kids that are kind 
of on the brink of packing it in and taking a flight to Turkey 
that will--and then crossing the border into Syria--I think we 
have to look at some of these programs.
    To be sure, not all of them produce real results and we 
have to definitely scrub--understand what is working and what 
is not. But, I think we have to keep trying and working with 
our allies, whether it is the folks in the United Arab Emirates 
(UAE)--some of the work we have done there on CVE--or our 
European allies. I think it is an important component of the 
wider strategy.
    Senator Booker. And, programs like ``Think Again, Turn 
Away,'' were not really successful. So, really finding the ones 
that are working, investing in those, obviously--not 
undermining the law enforcement efforts and the like, but 
finding the ones that are targeted.
    And, just out of curiosity, in the few minutes I have 
left--on National Public Radio (NPR), there was a good article 
my staff sent me about why some neighborhoods are very 
radicalized, but some are not. You have a Moroccan neighborhood 
where they are and then you have a Turkish neighborhood that is 
not, but yet, they have some of the same characteristics, in 
terms of challenges to integration. Why would you say that is 
the case? Mr. Zarate or Ms. Smith, if you have thoughts on that 
please share them.
    Mr. Zarate. Senator, it is a great question and one that 
actually bears a lot more investigation, because we have had 
these hot spots of radicalization. We also have the situation, 
Senator--and this is part of the difficulty of the CVE 
efforts--and, as one who bears the scars of doing work in this 
space for a number of years, I can attest to it. But, the 
reality is, you have family members who, themselves, grew up in 
the same home and the same neighborhood. One goes off to fight. 
The other does not and does not fall prey to the ideology. And, 
the question is: why? And, I think, sociologists, 
archaeologists, and anthropologists are all looking at this. 
There is sort of the social scientist surge on this to figure 
out what the difference is.
    And, one of the things, to Clint's point earlier, is the 
personal connection between the radicalizers, the ideologues, 
and the lineage of both ideological and operational networks. I 
think where you have seen these groups continue to persist and 
where they continue to produce radicalized individuals and 
foreign fighters, conflict after conflict and year after year, 
is in these communities where there are people who are actively 
trying to recruit as a part of their mission. You have seen it 
with Mullah Krekar in Norway. You have seen it with preachers 
in the U.K. You have seen it, obviously, in France and Belgium, 
where you have this ideological lineage that embeds in 
communities. That, then, becomes a hotbed.
    So, I think that is one factor, but I think scientists are 
trying to figure this out, because not even within families 
themselves can we figure out exactly what radicalized one 
individual and not another.
    Senator Booker. And, the external timberline--and I will 
stop here--of sort of the radical right that is growing in 
Europe is actually creating more combustible fuel for 
radicalization. And, does that concern you, in terms of 
rhetoric here in the United States, which might be, 
potentially, doing the same?
    Ms. Smith. I am very worried about political developments 
inside Europe, where we have seen the rise of anti-immigrant 
and anti-E.U. parties in countless countries across the 
European continent and what they are doing to then fuel the 
grievances that these Muslim communities have against the 
societies in which they live. I think, similarly, we have to be 
careful here about our own rhetoric, acts of discrimination, 
and alienation. We want to be as inclusive as possible. We have 
to recognize that we are also dealing with a very small 
percentage--even in Europe--of the Muslim community. And, it is 
not fair to say that all of the Muslims inside of Europe are 
susceptible to radicalization. We have to keep that type of 
thinking in check.
    So, most importantly, I think, I am watching developments 
inside of Europe very closely and trying to figure out how this 
is going to unfold and change their approach in the coming 
months and years. But, I think we have to watch ourselves, as 
well, on this side of the Atlantic Ocean.
    Mr. Zarate. Senator, we cannot move to a position where, in 
this country, we are propagating and echoing the narrative of 
the other, right? We are Americans--all Americans--Muslim, 
Christian, Jewish, and agnostic, right? We are all Americans. 
And to the extent that our political discourse drives a sense 
of alienation and divide, that is not only destructive, but it 
is dangerous.
    Senator Booker. Thank you very much.
    Mr. Chairman, thank you.
    Chairman Johnson. Thank you, Senator Booker. Senator 
Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you, Mr. Chairman and Senator 
Carper, for holding this hearing. Of course, you once again had 
a great panel. I am sorry we did not have Administration 
officials here, because, when we have had them before us, we 
have learned a lot about what is going on--and, frankly, I 
think, we have been constructive in giving them ideas about 
what should be happening in addition to what is already 
happening--both on the international side, on the global threat 
here at home, in terms of the protection of the homeland, and, 
certainly, on winning the hearts and minds, which we have had a 
good conversation about today.
    In Ohio, people are worried. I mean, they see what happened 
in Brussels. They remember Paris. They remember San Bernadino. 
And, we are told by the national security experts here in 
Washington that the threat has increased--that here, in the 
United States, we face an increased threat today.
    In listening to the conversations, I wonder whether you 
agree with that. Some of you seem to be saying that, maybe, 
recruitment is down and that ISIS is not being as successful 
because of some of the military victories--by the way, someone 
said they are victories by us. I mean, a lot of the military 
victories are by the Syrian Army right now. We have to remember 
that--and there are some consequences to that that may create 
even additional refugee flows--if that makes any sense, which I 
think it does.
    So, my question to you, I guess, is, one, do you think 
that, somehow, the threat has ebbed? I do not sense that.
    And, two, I would like to dig a little deeper into this 
issue of the ideology--and I think there is more consensus--
even though it is not a complete consensus--as to what we ought 
to do globally. There is more consensus about what we ought to 
do, in terms of protecting the homeland. There is less about 
how you actually get at the hearts and minds.
    One data point that has been reported to us--and maybe you 
would dispute this--but it is very interesting, as it relates 
to our conversation about what is happening here in Muslim 
communities and how we can thwart young people--the recruits--
in joining a misguided cause, is that 38 percent of U.S. 
citizens who have been charged with ISIS-related offenses are 
converts. So, we sometimes talk about the lone wolf. Sometimes, 
the lone wolf is a Muslim and sometimes it is a convert, but, 
often, it is a convert.
    So, I mean, I could not agree more that we need to do more 
in the Muslim community. I understand Mr. Watts's point about 
priorities. But, I will tell you, the first foreign fighter, I 
believe, who came back and was arrested here in the United 
States was from Columbus, Ohio. He was Somali. I have talked to 
the police officers there. I have talked to the Somali 
community. Part of the reason that we were able to apprehend 
him was because of a cooperation between the police and the 
Somali community. So, that is very important.
    But, is this figure accurate--that almost 40 percent of 
those who have been arrested here, on ISIS-related charges, are 
converts? And, what does that mean, in terms of dealing with 
this issue? Is it even broader than the importance of going 
into these Muslim communities, having that relationship, and 
having the leadership in those communities provide that 
alternative path and let people know that--as Mr. Watts said, I 
thought--these people are villains rather than heroes?
    So, those are my two questions, I guess. One, what do you 
think about the threat, overall, and, second, what do you think 
about dealing with the challenge we have here in this country 
with people who are becoming radicalized--and, particularly, 
those who are converts to Islam becoming radicalized.
    And, Juan, I will start with you.
    Mr. Zarate. Senator Portman, thank you. They are great 
questions, as always.
    First, I think the scope, scale, and sophistication of 
terrorist threats are more significant now than ever before. 
Part of this has to do with the diversification of the 
nationalities of individuals involved. Part of it has to do 
with the expanse of the geographies--with ISIS establishing 
these provinces--these wilayats--with several of these, 
geographically, now applying to ISIS to be a part of it. We 
have seen attacks in Southeast Asia as a part of the 
application process. And so, the geographic scope, the 
diversity, and the numbers are still there, while the 
sophistication of the operations are increasing.
    In addition, this is a group that is thinking about the 
next generation. And so, you have seen the recruitment of women 
and the attempts to engage in education and schooling--all as a 
way of breeding a new generation of jihadis and radicals as, 
perhaps, part of an ``ISIS 2.0.''
    Finally, the idea of the caliphate--even though it is 
diminishing in Iraq--the fact that it is beginning to spread in 
other parts of the world--and the very notion of it being a 
reality and persisting continues to animate the movement in 
some very dangerous ways. And so, I mentioned Southeast Asia. 
You have seen the reanimation of terrorist networks that we had 
worked so hard with our Southeast Asian partners and the 
Australians to suppress now resurrecting because the idea and 
the animation of the caliphate are driving some of these 
things. So, I think we are in a more dangerous, animated time 
for global terrorism.
    Senator Portman. How about the threat here in the United 
States? How would you respond to that? Maybe, Mr. Watts, you 
could take a crack at that.
    Mr. Watts. I would first note that we have a lot more 
``ones and twos'', rather than community recruitment, here in 
the States. And, of those ``ones and twos''--as you pointed 
to--many of them have deep psychological issues and were, 
maybe, not part of this radical ideology for very long. And so, 
how do you detect them if they are not a part of a community 
and they are new to this movement?
    Many of the converts find Islam, then go to the extreme 
form of Islam, and then mobilize to support ISIS--that can 
happen in months or years--and that is a tip-off that there is 
something else going on there. So, the only real way to do that 
is online electronic surveillance. That is your best bet to 
pick those people up. They are self-radicalizing. They are 
becoming motivated in ways that are very hard to detect. You do 
not have a community that can help you detect them. You do not 
have a law enforcement entity, possibly, that can detect them. 
So, how do you do that? Your best chance is online--and then 
that comes down to how comfortable Americans are with seeing 
that.
    I am upset that I am no longer in government. I can sit at 
my house and watch extremists online and know that they are 
mobilizing toward al-Qaeda, ISIS, or whatever group, but, yet, 
law enforcement, in many ways, has many more hurdles to hop 
over in order to monitor that sort of information. Oftentimes, 
I can provide it to them easier than they can get it 
themselves.
    So, I think it is about how we work through this system. 
That 40 percent worries me more because I also feel like they 
have a propensity to violence that is higher than the rate of 
many of the others--especially in the homeland.
    Senator Portman. Yes, I think those are good points. Our 
time is expiring here, but one thing that we did not get into 
earlier, in terms of the CVE issue, is what is going on online. 
And, our inability to counter that narrative in an effective 
way is a real concern. Even at our fusion center in Ohio, which 
I visited recently, we are doing some of this--and that is very 
important. But, it seems to me we should be increasing our 
efforts.
    As you know, this Committee has talked a lot about this, 
again, with Administration officials. And, I think we have 
helped to construct a way to nudge them toward more of this, in 
a more sophisticated way, to go online, where those 
individuals--who are, maybe, converts or, maybe, lone wolves--
are finding this information. It is not a physical contact. The 
young man from Cincinnati that intended to come here to this 
Capitol, for instance--who was a convert--was working online to 
become not just a convert, but to become radicalized. And, I 
think this is an area where we have, unfortunately, a real gap, 
in terms of our ability to project.
    Ms. Smith, you have some background in that, I think. Do 
you have any thoughts on that--on our online messaging and how 
to countermessage?
    Ms. Smith. Well, I would just note that we have seen 
different stages of how ISIS has kind of taken the fight away 
from the region and into Europe--and, now, elsewhere--including 
the United States. They first wanted to inspire attacks. Then, 
they tried very hard to enable them. And now, they are working 
to actually direct the attacks.
    And so, our efforts to counter their efforts have to be 
driven toward every single one of those efforts--through law 
enforcement, through the use of our military to get them back 
home, in the place--the safe haven--where they exist, but also 
through the CVE efforts that we talked about.
    But, you are exactly right. The online presence as well as 
their ability and their sophistication online is something that 
should worry all of us a great deal.
    Senator Portman. Mr. Watts.
    Mr. Watts. If I could add one thing--because I failed to 
mention it earlier with Senator Booker's question--it is that 
there are online CVE programs that I have seen, which I do 
think have merit. One is called ``One-to-One Online 
Interventions.'' They have done that in the U.K. Moonshot is a 
group that has done it. It sits outside of the government. I 
think that is an effective example of how you can have CVE in 
the online space. What tends to happen with investments, 
though, is that these are more expensive, because you are 
talking about using resources for a one-on-one approach. And, 
we tend to think, ``Well, if we do this program with 10 people, 
it might reach 1,000.''
    I would rather go heavier--I guess my response is--heavier 
on those that we know are the closest to getting on that 
airplane or showing up here with an explosive device--and 
investing a little heavier in those CVE programs. So, maybe 
that is a better answer to the question.
    Senator Portman. You have to identify those individuals 
first----
    Mr. Watts. Yes.
    Senator Portman [continuing]. You say--and that is one of 
our challenges--to identify them. I could not agree more about 
having more of a targeted focus and a more laser-like approach.
    Thank you all very much.
    Chairman Johnson. Thank you, Senator Portman.
    Mr. Watts, I want to quickly go back, because you indicated 
that as a private citizen, you can do more to identify these 
individuals than government officials can. Talk about the 
handcuffs that are actually on government officials and are 
keeping them from trying to do what we need to do.
    Mr. Watts. I think it is twofold. For example, I teach with 
the New Jersey State Police (NJSP) a lot and do a lot of 
programs with intelligence-led policing and counterterrorism. 
And so, you can show them these accounts that are out there--
wide open. It comes down to two issues. What are the rules 
around collecting this information on private citizens? Law 
enforcement, intelligence, and the Federal system all have a 
different level of comfort with it. So, they are not sure 
whether they should pursue it.
    The second part is the capacity to do it. State and local 
entities could benefit a lot from detecting people online, but 
they have the least capacity to do so. The Federal Government 
has the most capacity and the best technology--those sorts of 
assets--but may have trouble communicating that information 
down to the State and local levels.
    The other part that I would tell you is, if I have to go 
into a government location and do a briefing, it is almost 
impossible to use the technology just to access the 
information. This is all for good reasons--cybersecurity, 
physical security, and things like that. But, you almost cannot 
get on the Internet to even observe it. It becomes a barrier 
and you start to look for other ways to do it. On the other 
hand, at my house, I can open up my doors. I can just watch 
what is going on. Or, I can collaborate with people like Daveed 
and other people online that are watching this and we can set 
up, basically, our own databases where we tag and track people.
    As soon as that gets introduced into the government--
whether it is due to bureaucracy, capability, access, or data 
privacy reasons--everything tends to go sideways. It becomes 
very archaic or very difficult to do.
    Chairman Johnson. Do you see a solution to that that still 
protects American civil liberties?
    Mr. Watts. I do. I think that there just needs to be some 
sort of legislation or regulation put forth that says, ``If I, 
as a private citizen, can observe this activity online, then, 
as the Federal Government, we are going to observe that 
activity online.'' The Snowden leaks did nothing for us, in 
terms of helping the government to access that information. 
But, I think the more straightforward approach is saying, 
``Look, the best way we can secure our Nation and safeguard you 
is if we watch what is going on online.'' And, when people are 
talking about committing violence or mobilizing toward 
violence, then we need to go out and talk to them. But, if you 
cannot see that information or if it is coming to you very 
delayed, it is really hard to take a preemptive law enforcement 
approach.
    Chairman Johnson. Mr. Zarate, you talked a little bit 
about, really, what the goal is. We held a hearing, really, 
based on Graeme Wood's article, in the Atlantic, ``What ISIS 
Really Wants.'' My conclusion is that it is really two things: 
world domination and to set up this apocalyptic final battle--
these are somewhat conflicting goals.
    I just want to ask all of the panelists--what is behind 
this? This is what is just baffling, I think, to Americans. al-
Qaeda's narrative was that they just wanted the West out of the 
Middle East. This is different. So, can you first speak to 
that? And, I just want to go down the panel. What do you think 
they are after?
    Mr. Zarate. Chairman, I think it is the next evolution of 
the violent Sunni extremist ideology. And, they have given life 
and manifestation to what had once been the mythology of 
reestablishing the Islamic caliphate. And so, first and 
foremost, they want to establish, not only this caliphate, but 
to demonstrate that they can govern and, actually, that this is 
a place--and this is part of the narrative--that it is the only 
place where you can practice true Islam. This is part of the 
attractiveness.
    And so, they have morphed the al-Qaeda narrative--which is 
that the West is at war with Islam and that Muslims have a 
religious obligation to defend it--into this caliphate and 
said, ``The way we are governing it makes it the only place 
where you can actually live as a true Muslim.'' And so, it is 
that, in and of itself, that is the core of their message. 
That, then, animates outward, because their job, then, is to 
kill and convert infidels and to project out. And, they 
understand that the West--along with our allies and proxies--
will not allow them to do this long term.
    Chairman Johnson. You also talked about how, again, as long 
as that caliphate exists, it inspires and it actually prompts 
additional types of action. I was interested in you talking 
about the application process. It kind of sounds like a gang 
initiation. Can you just quickly speak to that and give us some 
examples?
    Mr. Zarate. Well, what you have seen is, different 
terrorist groups--the moment that the caliphate was announced, 
there was a moment of strategic decision-making for al-Qaeda as 
well as the al-Qaeda affiliates and other violent extremist 
groups. And so, they had to determine, ``Are we going to be a 
part of this? Do we believe in it? '' This is part of the 
strategic renting and division you have seen between the al-
Qaeda core and ISIS.
    What a number of groups have done--to include Boko Haram, 
which was long allied with al-Qaeda--was to then send messages 
to ISIS initiating membership--in essence, pledging allegiance 
in the first instance, and then, applying to actually be an 
official province of the Islamic State of Iraq and Syria. This 
is a reality for them. They see this as a governing reality.
    And so, you have seen this emerge in Libya, in Egypt, in 
Afghanistan, in Pakistan, in Saudi Arabia, and in Yemen. These 
are very real individuals thinking that they are part of 
something bigger than themselves--and that has dangerous 
implications because they have to prove that they are worthy, 
which is why you have seen these attacks in the hinterlands of 
places, like Jakarta, with people trying to be a part of this 
broader caliphate. It is animating the movement and it is 
resurrecting these networks--both funding and operational--that 
we had long ago suppressed.
    Chairman Johnson. So, the inescapable conclusion to this, 
from my standpoint is, if you really want to go on offense as 
opposed to continue to stay on defense--where defense is 
incredibly difficult and almost impossible--do you not have to 
destroy that caliphate? Do you not have to deny them that 
territory? Mr. Gartenstein-Ross.
    Mr. Gartenstein-Ross. Yes, I agree with that. And, it has 
been mentioned--including by Clint earlier in the hearing--that 
messaging that diffuses their image--their image, which I call 
a winner's message--is very important. And, the ammunition is 
there to do that. Absolutely, if they lose their caliphate, 
they have some explaining to do, as one would say. You have at 
least a couple of different kinds of people who are recruited 
to ISIS--those who are heavily ideological and those who are 
more aligned with the criminal elements, as it was framed 
before.
    But, for both of them, if the caliphate is lost--those who 
are more ideological will understand that that quick loss of 
the caliphate really destroys ISIS's interpretation of Islamic 
prophecy. Those who are more aligned with the criminal element 
will just see them as losers. And, ultimately, they have 
experienced a lot of losses.
    Now--right now--they are not weak in terms of messaging. 
They just carried out a couple of major attacks in 4 months. 
But, one thing that our messaging apparatus has done poorly is 
the broadcasting of those losses--losses that they have 
experienced in the Sahal region, in Afghanistan, and in 
Algeria, where their entire branch got wiped out--and 
elsewhere--and a lot of that comes back to the bureaucracy 
question, which we have raised, which is that, sometimes, when 
you look at our messaging apparatus--for some parts of the 
messaging apparatus--it is highly bureaucratized--even how you 
have a tweet approved. For others, there are theater 
limitations, where they cannot go--and go beyond their 
immediate theater, which hinders the strategy of our messaging.
    Chairman Johnson. But, again, messaging is all about 
reality. And, the reality is that the caliphate remains. Sure, 
we have been nibbling away at it. But, as has been described, 
the network is growing. They have actually gone from inspiring 
to directing. So, the reality is that they are not losing yet. 
They have not lost. They have not lost yet.
    Mr. Gartenstein-Ross. Oh, absolutely.
    Chairman Johnson. And, I would argue that, until they are 
overtly losing, where the reality is such, they are going to 
continue to inspire, they will continue to direct, and the 
threat will continue to grow.
    Mr. Gartenstein-Ross. Sir, I agree with you entirely, but I 
would add one thing. Ultimately, ISIS has understood, in 
particular, the potential of social media to mobilize people to 
carry out attacks--and part of that is a rooted image of 
strength. They have, and have had, more of an image of strength 
in certain theaters than is justified. I mean, if you look back 
at how they convinced Boko Haram to join their network, a part 
of that story is convincing people--contrary to the actual 
facts on the ground--that they controlled the city of Derna in 
Libya, which they never did.
    Ultimately, as they start to lose more, I think it is in 
our interest to be able to amplify that message of their 
losses, because that will hit them doubly hard. In addition to 
losses on the ground, they will have more trouble drawing in 
recruits--and that is why I think we need to think about 
getting our messaging right--not because it is a panacea now, 
but because, as you say, when they do start to lose the 
caliphate, we want to be able to put that out using a method 
that is effective.
    Chairman Johnson. OK. I will give you all a chance to give 
some final thoughts at the end of this, but I want to be 
respectful of my Ranking Member's time.
    Senator Carper. I am very much interested in the line of 
questioning that we just had with the Chairman. I was going to 
pursue that myself, but I think you have responded to it very 
well here.
    One of the things we have not touched on today is the issue 
of rail security in this country. I was in China with a bunch 
of our colleagues in the last week and had an opportunity to 
ride on some of the most beautiful, comfortable, attractive, 
and timely trains that I have ridden on in quite a while. I 
ride the train a lot, as some of you know. And, riding on 
Amtrak's Northeast Regional coming from New York City down to 
Washington today was--compared to what I was used to in China--
was eye opening and it was not encouraging, let me just say. 
They are doing a pretty good job over there investing in 
infrastructure and we are not.
    Speaking of rail, though, I want to ask if you all would 
just help us to rate the security of our rail system, relative 
to the security of, maybe, our aviation system--and what 
lessons do you think we might learn from the Brussels attack 
that might relate to rail security.
    Mr. Watts, do you want to go first?
    Mr. Watts. I would say rail, as compared to air, is always 
going to be far less secure. We have always had a very open 
system with rail, as do almost all countries. And, I think it 
is a logical place--and when I say rail, I do not even just 
mean Amtrak. The subway systems of the United States--the 
vulnerabilities there are impossible, really, to defend 
against. And, the best defense is an active defense. It is the 
offense. It is the investigations. It is running down leads.
    I am not sure that, even if we wanted to secure it, there 
is a good way that we could do it. I think it is a feasibility 
issue--just in terms of the access that anyone, really, can get 
to the Amtrak system or the subway systems--whatever rail 
system that it might be.
    Yes. I do not have a good answer for it, but I see it as a 
vulnerability, worldwide--not just here in the United States.
    Senator Carper. Thank you. Mr. Gartenstein-Ross.
    Mr. Gartenstein-Ross. So, I think there are two problems, 
in terms of trying to put more rail security into place--with 
one exception and I will talk about that measure at the end. 
But, the problem is, first, the more you harden it, like with 
checkpoints and the like, the more you defeat the purpose. The 
reason why subways are so effective is because you can hop on. 
It does not take you hours to get across town. You do not have 
to wait in a Transportation Security Administration (TSA) line. 
If you had to, then far fewer people would take the subway.
    The second thing is the very problem we saw in the Brussels 
airport, which is that, even if you have a checkpoint, 
terrorists can attack right outside of the checkpoint--and that 
is just an insoluble problem, because, if you move the 
checkpoint outside, for example, then you just have a line of 
waiting passengers outside--and that actually puts cars into 
play. Car bombs can be used.
    The one exception is good human policing--and that is what 
Amtrak tries to do. You have the teams with dogs who will be 
going around Amtrak trains to try to make sure nothing is 
amiss. It is far from being as effective as airline security, 
but that is the last line of defense for our rail security.
    Ms. Smith. I would just note that I was in Brussels 2 days 
before the attacks. And, in addition to being in Brussels, I 
took the train over to London. They have hardened their rail 
security because of the differences that exist between the U.K. 
and mainland Europe. But, it did create an incredible 
chokepoint and a level of vulnerability. And, I was aware, as I 
stood there--not knowing what was coming days later, of 
course--that you had this huge mass of people waiting to go 
through security to get on a train to go through the tunnel 
over to London. So, I agree with the point that, in some ways, 
some of these fixes can make a bad situation worse.
    The only other point I would add is that, in Europe, on the 
aviation security point, we have a pretty dire situation in 
that, past the security checkpoint, those areas are regulated 
and mandated to meet a certain level of aviation security 
standards. But, before the checkpoint, each individual country 
can handle security as they wish, which, as you can imagine, 
creates a whole array of standards and levels of security 
across European airports. And, I think Europeans are going to 
have to have some sort of discussion on how they want to, 
collectively, set standards for how they handle those areas 
before the checkpoints.
    Senator Carper. OK. Thank you. Mr. Zarate.
    Mr. Zarate. Senator, I wanted to point out just one thing. 
I think deploying more behavioral analysts is important in an 
open system. I think TSA and DHS have tried to do that at 
airports and, certainly, at train stations.
    The other thing I would say is that there are new 
technologies coming online that allow for better detection, to 
a certain extent, as you mentioned earlier, Senator--even 
prediction around anomaly and anomaly detection. Some of this 
is still in formation. DHS has invested in some of this, as you 
know. The Defense Advanced Research Projects Agency (DARPA) has 
done so, as well, for DOD. And so, some of these technologies, 
if applied in addition to these other layers of security and 
behavioral analysis, could, perhaps, give you a better sense of 
what the threats may be.
    But, the long pole in the tent is intelligence, targeting, 
and risk mitigation in an open system--and that is what we have 
in our train system.
    Senator Carper. Thank you. The last thing I want to ask you 
all is if you could just quickly give me one particularly 
important issue for our consideration that you think there is 
near unanimous agreement on--or, maybe, unanimous agreement. 
Mr. Zarate.
    Mr. Zarate. Senator, I will give two issues, if you will 
give me the indulgence. One is a point you made earlier, which 
is that the prediction and prevention paradigm, which has 
really defined the post-9/11 environment for the United States, 
really has to be operationally applied in the European context. 
They talk about it. French President Francois Hollande has 
talked about Europe being at war. But, they have to move to an 
operationally preventative mindset and we have to help them get 
there.
    A second thing, if I could, sir, for DHS's purposes--moving 
toward systemic defense of key critical infrastructure--you 
just asked about the train system--water, the electrical grid, 
and financial systems--we need to build resiliency and 
redundancy around those systems, because we know that, not only 
terrorists, but cyber actors--State and non-State actors--are 
looking for vulnerabilities in those systems. And, I think that 
is something that only DHS can help to drive in this country.
    Senator Carper. Alright. Thank you.
    Ms. Smith, the same question.
    Ms. Smith. Europol recently, in the wake of the Paris 
attacks, created this new European Counter Terrorism Centre 
(ECTC). What happens often with these new initiatives, inside 
the E.U. or Europol, is that they become largely informational 
and we have to work with them to ensure that this new 
counterterrorism center is, in fact, operational.
    Senator Carper. Thank you. Same question.
    Mr. Gartenstein-Ross. I think there is near unanimous 
agreement that the sanctity of our intelligence processes is 
important in the fight against ISIS--and that, as Senator 
Johnson said, depriving ISIS of territory is the best way to 
craft a safer future from their mass-casualty attacks.
    To that extent, I think that it is extraordinarily 
disturbing to read the new report in the Daily Beast by Shane 
Harris and Nancy Youssef. You have, now, not only allegations 
by numerous analysts--dozens of them--about the politicization 
of intelligence at the U.S. Central Command (CENTCOM), but also 
a credible report of retaliation. It is very disturbing to me 
to see that Director of National Intelligence (DNI) James 
Clapper downplayed the concerns of whistleblowers. And, I think 
that, if our intelligence processes are falling apart and if 
you have actual retaliation going on, where the leadership is 
not acting on it, then we have a tremendous problem in our own 
system.
    Senator Carper. Alright. Thank you.
    Mr. Watts, the last word.
    Mr. Watts. There is more talk than action. We saw Paris. We 
saw Brussels 4 months later. These were some of the same 
attackers. It was the same network. Nothing has happened. And, 
I think anything short of moving forward--not a working group 
or a committee in Europe--I am talking about putting together 
actual resources and a plan with stated objectives, in Europe, 
about how they are going to deal with the threat of ISIS. It 
has to happen within 30 days--within 2 weeks. It is obvious 
that this problem is not going to go away. It is going to be 
around for a while.
    Senator Carper. You have been an exceptional panel. I 
mentioned to our Chairman that there is going to be another 
panel, I think, in a couple of weeks, where we actually will 
have representatives from the Department of Homeland Security 
and others in on behalf of the Administration. And, in a way, 
this panel and each panelist's testimony actually sets up the 
next panel very well. Thank you so much.
    Chairman Johnson. Thank you, Senator Carper.
    And, by the way, I want to clarify what I said at the 
opening. I did not invite Homeland Security Secretary Jeh 
Johnson. I guess that has been misreported. We just invited 
some senior officials from DHS, the FBI, and the National 
Counterterrorism Center--not Secretary Johnson. Senator Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Well, thank you, Mr. Chairman. And, thank 
you--it hurts me to say this--but, thank you, Senator Booker, 
for allowing me to go.
    I would just say that the FBI is not here because they are 
in the middle of an investigation. And, I think, on the 26th, 
you are going to have a hearing, which should be a very good 
hearing--and I think that DHS and the NCTC are not here because 
the FBI could not be here. But, we will get to that--but I 
think it is important that they are able to do their jobs.
    Look, Secretary Johnson is going to be pushing--and, by the 
way, thank you all for your testimony. Thank you for being 
here. Secretary Johnson is going to be pushing for new airport 
security provisions to be added to the Federal Aviation 
Administration (FAA) reauthorization legislation that is going 
to be coming to the Senate.
    There has been a lot of conversation today about the E.U. 
and how certain countries are not doing what they need to do, 
getting the information they need, sharing that information, 
and all of that, which is a problem that I do not know how to 
solve, by the way, without writing a big old fat check that is 
not going to help us out with our debt here. But, security is 
important--make no mistake about it. But, those folks have to 
step up in a way.
    And, by the way, the visa question that was brought up, 
about taking potential countries off of that list--Mr. 
Chairman, you asked that question. I appreciate you asking that 
question and, maybe, we ought to bring some folks in here who 
know what is reasonable and what is not--who is not cutting the 
mustard--and can make some recommendations. I think that is 
entirely appropriate, when it comes to the security of this 
country.
    But, I want to talk about airport security--and you get to 
tell me your opinion. Is the security we have in the airports, 
in this country, where it needs to be? Go ahead, Mr. Zarate.
    Mr. Zarate. Senator, I think it can always be better, but I 
think our security is better than most places around the world.
    Senator Tester. So, let me ask you this--and I agree with 
you. We have full body scanners and we have magnetometers. Can 
any of you tell me why we have full body scanners? Are 
magnetometers not good enough?
    Mr. Zarate. Well, I think the full body scanners allow you 
to determine if there are other types of explosives or things 
on the body of the person----
    Senator Tester. Thank you.
    Mr. Zarate [continuing]. That is trying to evade the 
magnetometer.
    Senator Tester. Good answer. So, if we have airports that 
do not have full body scanners in them--if they just have 
magnetometers--are we opening ourselves up to a security risk?
    Mr. Zarate. Potentially. And, I think what TSA has tried to 
do under the former Director, and now, under this Director, is 
to apply a risk-based model and approach, saying, ``We have 
limited resources. Where do we apply them? And, which airports 
are the most vulnerable.''
    Senator Tester. And so, that risk-based approach, I assume, 
is based on population--the number of people going through. Do 
you not think the terrorists would know that?
    Mr. Zarate. They would--and they are constantly probing for 
vulnerabilities. As Daveed mentioned earlier, they are working 
outside of the rings of security. They are trying to infiltrate 
through them. And, they are trying to get access through 
insiders into the system--as we have seen, in the past, with 
radicalized individuals who work on the tarmac or within 
industry layers.
    Senator Tester. That is good. And, that is exactly the 
point I have made to TSA Administrator Peter Neffinger and 
others--that they will go to where the weakest link is--and 
they will find it and, eventually, go there. And so, even 
though you base it, initially, on volume, the end goal is to 
make sure we have them there and that we have them there as 
soon as possible (ASAP). Otherwise, why would we have the 
scanners?
    Let me ask you about perimeter security. What happened in 
Belgium did not happen on the other side of the TSA 
checkpoint--if that is what they call them in Belgium. It 
happened outside, where there are lots of people. Can you see a 
solution for that, in our system, that would not be cost 
prohibitive?
    Mr. Zarate. Well, Senator, I was just in Rome and saw post-
Brussels--and saw some of the measures that they were employing 
for the terminals where American carriers are and where 
Americans are likely to travel--and they had deployed a couple 
of key checkpoints--in essence, chokepoints for vehicles and 
passengers moving into the terminal. And then, they had a lot 
of visible security, both on the ground and overhead.
    I can imagine you seeing this, in major U.S. airports, at 
times of heightened threat--where you can apply vehicular 
searches and checks at particular sites without causing too 
much commercial or vehicular disruption--and traffic 
disruption--more random checks around points of, for example, 
check-in--and, perhaps, even more behavioral analysis, canines, 
and others deployed in key airports. But, it is difficult. It 
is difficult without disrupting traffic and commercial 
activities.
    Senator Tester. And, look, I think there is some merit to 
doing that. I guess the question is: does anybody know what 
kind of appropriation it would take to, maybe, not have it all 
of the time, but to have it enough of the time, so that you 
would not know?
    Mr. Zarate. I do not know, Senator. I think part of this 
has to do with local authorities, port authorities, and others 
that have to deploy resources--as well as the Federal 
Government. So, I do not know what those numbers look like.
    Senator Tester. Yes, go ahead.
    Mr. Gartenstein-Ross. I think you could, probably, do it 
with relatively little appropriation if you took the behavioral 
detection teams that, right now, are past the checkpoint or at 
the checkpoint and moved them in front of the checkpoint in 
some airports. I mean, the fact is, we have these behavioral 
detection teams--and they are a good idea--but what they do is, 
by design, pretty limited.
    Senator Tester. OK. OK. That is good.
    Mr. Watts. Senator, I would only add one thing, which is 
that we go all out on passengers, in terms of screening, but 
the real vulnerabilities that we have seen, in the last two 
terrorist attacks involving airport security, are really about 
whether they can blow up an airplane in flight.
    Senator Tester. Yes.
    Mr. Watts. So, we saw al-Qaeda, in the Sinai, do that 
through an insider.
    Senator Tester. Yes.
    Mr. Watts. We also saw an explosive device used in Somalia, 
which seems to--it is not really clear--through an insider. So, 
I think, if I was going to invest, now, in airport security, I 
would not look so much at rehardening the passenger security 
lines, but look at other vantage points that extremists might 
use.
    Senator Tester. OK. So, that gets to my next question. That 
is, are we certifying--are we testing--however you want to put 
it--the folks who work with the baggage, who work for the 
airlines, and who work in security? Are we doing enough there?
    Mr. Watts. I honestly, sir, have no idea. But, I think that 
really gets at what our risk portfolio is and, really, the 
offense part of it, which involves investigations, preemptive 
intelligence, and that sort of thing.
    Senator Tester. Well, I certainly appreciate your 
testimonies and I appreciate you being here for the questions. 
And, thank you very much for what you do.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Tester, thank you.
    Coming back--I do not know, did you attend the ``Dogs of 
DHS'' hearing we had?
    Senator Tester. Which one?
    Chairman Johnson. ``Dogs of DHS.'' You might have missed 
that. It was an excellent hearing. I am a big supporter of 
having more canine units, in terms of that layer of defense--
particularly, for luggage--outside of the perimeter. That would 
be, I think, money very well spent. Senator Booker.
    Senator Booker. I just wanted to drill down one more time, 
because, obviously, we are attacking al-Qaeda and their 
affiliates, ISIS, and other terrorist organizations. I am glad 
in Syria and in Iraq we are sort of shrinking the territory and 
starting to make some considerable gains. I love that you said 
it is a matter of when--not if--and I do believe that that is 
the case. So, that is one level. Obviously, we are looking at 
places like Libya and Algeria--far flung--where they are 
starting to set up other outposts.
    Then, the second level--equally important--is to start to 
undermine the terrorist network--and this is a lot of what we 
talked about today, which to me, clearly--I agree with what, I 
think, is the sentiment of the panel, which is that we need to 
be a lot more aggressive and hold to task our European 
partners. It is outrageous, to me, that they are sharing 
communication across the Atlantic Ocean, but not within Europe. 
And, even within their countries, they have sort of pre-9/11-
America problems that they have not worked through.
    Clearly, there is a lot more work to do and I believe that 
we are very vulnerable because of the Visa Waiver Program--far 
more so, I think, than with a refugee program, where the 
process takes a year to 2 years. The Visa Waiver Program, to 
me, is something we should be a lot more aggressive with, in 
terms of our posture with the VWP countries. So, I think that 
that, obviously, is something we have a lot of work to do on.
    But, I just want to get back to, in my final few minutes, 
the efforts for CVE, which I now realize means so many 
different things to so many different people. So, let me just 
say what I think it means. It is not dealing with the work of 
law enforcement, but, really, the other efforts going on to 
stop people from falling prey. I am concerned about what is 
happening in the field of battle. I am concerned about the Visa 
Waiver Program. I am also concerned, though, about homegrown 
radicalization right here in the United States.
    And, I do agree, again, as was said by the panel, that this 
is not something that is a matter of when. I think, Mr. Watts, 
you were saying that this is something we are going to be 
dealing with for a very long time. So, our ability to prevent 
the radicalization of people is critical as a tool--in addition 
to detecting them, thwarting them, and the like--but also as a 
defensive tool to create stronger ways to counter violent 
extremism within our communities.
    And, I am just curious, if you had to distill--and I open 
it up to the panel--here, we have the Administration launching 
their CVE task force and the Global Engagement Center. As these 
get off of the ground, could you just distill one more time, 
perhaps, for the panel, what specific recommendations you would 
have the Administration focus on? What are sort of the top 
bolded--``you better, you should, you must do this? ''
    And, we can start with you, Mr. Watts, and go to my left, 
which is something, as a Democrat, I often do. [Laughter.]
    Mr. Watts. The first thing I would address is where--where 
to focus it. In my experience, over the past decade, we have 
done a lot of CVE programs. It has sort of broadly been 
applied. I would focus on those very few communities--if it is 
in the United States or in Europe--where we know there are a 
lot of people being recruited from and where there is strong 
sentiment.
    Then, the next thing I would focus on is where to focus it 
online. Those two sometimes overlap, but, sometimes, they are 
divergent. So, can we determine where? So, putting more 
investment in--pinpointing where we want to focus those 
programs. Before, we were just applying programs, but they were 
sort of all over the place.
    The next thing is how we are going to apply them--and that 
really comes down to where on the spectrum of extremists we 
want to apply it. I think a better way to bring up what I was 
talking about earlier is, we have a pyramid--vulnerable, 
radicalized, and mobilized--but your investment should be in 
the reverse order. We start to invest more heavily on those 
one-to-one CVE engagements, which means, maybe, an imam or a 
cleric that does that, physically, or is online, via Facebook, 
in a one-to-one program.
    Then, the radicalizing population. How do we undermine that 
message? And, that is that we make villains--not martyrs--and 
we explain that the leading killer of a foreign fighter is 
another foreign fighter. And, that is that radicalizing 
population--and that is where we use defectors and peers sort 
of to do that.
    And, our lowest investment is at the broad, sort of, 
``winning over the community'' focus. And, I feel like, 10 
years ago, we were operating in the reverse. We were really 
focused on getting out into the communities and making people 
feel good about our counterterrorism approach--more like public 
affairs. I would rather see better engagement between those 
programs and those who are mobilized or are radicalizing.
    Senator Booker. OK. Thank you very much.
    Really quickly, the two bold recommendations--and please go 
as quickly as you can, because Juan over there is hoping he 
gets off. [Laughter.]
    Mr. Gartenstein-Ross. So, I have two quick recommendations. 
The first is for fast and deep, bureaucratized messaging with 
metrics for success. That means figuring out what is working 
and what is not.
    The second thing--the big idea I will put out is that I 
would pay attention to self-image and what makes a hero in 
multiple parts of the world. I was just talking to a colleague 
in East Africa who said, somewhat hyperbolically, that, ``To be 
a hero here, you can be a rapper, you can be, like, a 
businessman, and you can be an ISIS fighter. You cannot be a 
member of the Armed Forces. They are not heroic.''
    The thing about the United States--if you think about the 
way Hollywood shapes all of our images--anyone can be a hero. A 
soccer coach can be a hero. A Senator can be a hero. A member 
of the Armed Forces is a hero. A policeman is a hero. A 
firefighter is a hero. In the rest of the world, that is not, 
necessarily, the case.
    So, I would think about self-image, because ISIS and other 
extremist groups are definitely tapping into people's self-
image and giving them a route to become a hero. Do other routes 
exist?
    Senator Booker. Thank you very much. Ms. Smith.
    Ms. Smith. Well, as we all know, DOD has invested in this 
new office out in California--in Silicon Valley--and the idea 
is to try and tap existing technology to throw at a lot of 
conventional military problems and challenges that our 
servicemen and servicewomen are facing all over the world.
    The State Department is also going to have a very tiny 
presence in Silicon Valley--and I think they are utilizing this 
office to do the same thing--but to use existing technology and 
to challenge all of the amazing ``whiz kids'' out in California 
to apply some of this technology and know-how to the challenge 
of CVE is probably one of the better ways that you can use this 
little--I think it is a two-man office at this point. But, 
trying to use that State Department presence to tap into what 
already exists and applying it to the sophistication that we 
are seeing, in terms of encryption, surveillance, and document 
forgery--I mean, the list goes on and on--I think that would be 
a very wise investment.
    Senator Booker. Thank you very much.
    Mr. Zarate. Senator, I am happy to sit on the right for 
this one. [Laughter.]
    I have three things, Senator--and I would just commend the 
Department for naming George Selim as the head of this CVE task 
force, because he is a real professional in this space. I have 
worked with him. A lot of us have. He understands the 
challenges ahead and I think he is great for this major 
challenge that we have. But, I have three ideas.
    One is that we need a network of networks. This is 
something that the U.S. Government--and government Agencies 
unto themselves--cannot do. You need the ex-jihadis. You need 
the Sisters Against Violent Extremism (SAVE). You need the 
technology companies. You need the media companies. You need 
the clerics and the entrepreneurs in Muslim communities all to 
be a part of, not only creating a sense of heroism, but also a 
sense of identity, in the 21st Century, for these individuals 
and communities.
    So, we need to figure out how we animate this network of 
networks--and, it is a huge challenge for the U.S. Government, 
because we do not like to give up control. It is hard on the 
funding side. How do you give micro-grants to these one-on-one 
kind of efforts? And so, that is a challenge, but we have to 
figure that out, because it is really at the grassroots level 
that you are going to deal with this.
    Two, we have to figure out where the manifestations--the 
precursors to this ideology--begin to take root. Ultimately, we 
have to make sure that we have an inhospitable ecosystem for 
this ideology. We can never find ourselves in a position where, 
in the United States, you have a Molenbeek, a Luton, or a 
Birmingham, where these radical ideologues--or these 
ideologies--take root. It cannot happen. And so, where are the 
manifestations? How do you counter online recruitment? How do 
you create off-ramps for susceptible individuals? How do you 
deradicalize people who have come back, perhaps? And, how do 
you leverage them?
    Third, and finally--and I think this is where the community 
engagement piece becomes so important--how do you define 
identity and opportunity in these communities and for 
individuals--whether they are disaffected or otherwise? The 
government cannot define that. Families, friends, and 
communities have to play a role in defining that, because, at 
the end of the day, the problem of radicalization is often a 
problem of identity.
    Senator Booker. Mr. Chairman, thank you very much for that 
time.
    Chairman Johnson. Thank you, Senator Booker.
    Listen, I want to second what Senator Carper was saying. 
This has just been an exceptional panel and an exceptional 
discussion. The goal of every hearing, from my standpoint, is 
to lay out a reality--defining the problem, so we can take the 
first step in solving it, which is really that definition of 
the problem and admitting we have a problem. So, I want to 
commend my colleagues for asking very good questions and to 
thank the staff for assembling the panel. So, this has been, 
really, I think, an extremely good hearing.
    I will give you all a chance to make a concluding comment. 
Try and keep it brief. One question I did not get answered--I 
alluded to it, in terms of the concerns about nuclear 
surveillance--or the surveillance of nuclear facilities. So, if 
anybody wants to address critical infrastructure, I am highly 
concerned about it. We saw the cyber attack against Ukraine. We 
saw the physical terrorist attack against Metcalf, California. 
I am highly concerned about that. So, by all means, if you have 
something to add there--but do not feel obligated. But, 
otherwise, please just give a concluding comment before we 
close the hearing.
    I will start with you, Mr. Zarate.
    Mr. Zarate. Mr. Chairman, again, thank you for the 
privilege of being here and I am really honored to be with this 
expert panel.
    Let me just reiterate, on the DHS mission, because I think 
it is more critical, now, than at any time since 9/11--and it 
has less to do with attacking or dealing with particular groups 
or individuals--and it is the role of DHS to ensure that our 
critical national systems and infrastructure are not only 
secure, but that they are resilient and redundant. I think, 
again, there is no other agency in government that has that 
mission--and I think DHS has a critical role--whether it is 
online or physically--to make sure that our systems are secure 
and redundant. And, that goes a long way in, frankly, making us 
strong and in deterring terrorist attacks.
    The second point I would make, Senator--which I did not 
make earlier--which is that I do not think we can downplay the 
strategic impact of the smaller attacks that ISIS perpetrates. 
We have seen the effect of this in places like Paris and 
Brussels and I think we run the risk--if we define the threat 
through the current lens of whether or not it is existential 
and directed to the homeland--we run the risk of missing the 
adaptations in this threat and the strategic impact over time 
of what these groups can do to our societies, to our laws, and 
to the functioning of our economies.
    Chairman Johnson. By the way, I could not agree more. I 
mean, I do not want to give anybody any ideas, but, certainly, 
in my mind, a bunch of coordinated smaller attacks could have a 
devastating impact on our economy, for example. Ms. Smith.
    Ms. Smith. Let me just say, briefly, that these attacks in 
Europe--in Brussels and in Paris--could not have come at a 
worse time for Brussels, for the European Union, and for Europe 
as a whole. Not only are they facing very severe 
counterterrorism threats, but, as you well know, they are under 
the weight of a migration crisis. They are facing a resurgent 
Russia that is actively trying to destabilize the continent. 
They have weak economies. They have the potential exit of one 
of their largest members.
    And so, I believe that it is in America's interest to help 
fortify the European project. We are not a member of the 
European Union. We cannot do everything for them. But, it is in 
our interest to support the European project that, in many 
ways, is an American project. We helped provide the foundation 
upon which they built the European Union. I think, rather than 
pulling away, we have to invest in this relationship and do 
what we can to help them with these very real security 
challenges.
    Chairman Johnson. Thank you, Ms. Smith. Mr. Gartenstein-
Ross.
    Mr. Gartenstein-Ross. Since you specifically raised the 
issue of nuclear security, I will start there. I think that one 
area that we should look to, in general, is where, in our 
security apparatus, are there obvious vulnerabilities? There 
are at least two, with respect to nuclear security in Europe--
and in Belgium, in particular. One is that guards at Belgian 
nuclear facilities are still, by Belgian law, prohibited from 
carrying weapons--meaning that these facilities are vulnerable 
to a coordinated, armed attack.
    The second thing is, I think, that there are significant 
questions about whether they are doing enough to screen their 
personnel. A man named Ilyass Boughalab, who I highlight in my 
testimony--my written testimony--went to Syria as a foreign 
fighter. He died in 2014 and he had been a technician at a 
nuclear power plant from 2009 to 2012. He had access to 
sensitive areas of the reactor. This clearly calls into 
question whether their screening of personnel who have access 
to sensitive areas is sufficient.
    Overall, what this hearing has put its finger on is the 
question of whether we are well suited to the challenges of the 
21st century--and, in particular, I think, I would focus on 
system design. When you look at the European security 
apparatus, we have put our fingers, collectively, on a number 
of problems that occur there. And, the problem is, really, of a 
patchwork of systems and the lack of a central law enforcement 
body, as Clint mentioned. And, it means that terrorists who 
operate transnationally are, inherently, at an advantage.
    Overall, the U.S. system is better than the European 
system, but it also has its problems. And, we put our finger on 
messaging being one of those problems.
    The question, I would say, is whether our bureaucracy--is 
our internal system designed to keep up with these small nimble 
foes? Are we, as a legacy industry, ready to keep up with the 
start-ups that are going to be challenging us and trying to 
kill our citizens?
    Chairman Johnson. Thank you. Mr. Watts.
    Mr. Watts. My final points would be--what do we want, in 
terms of counterterrorism? This comes and goes. We had al-
Qaeda. Before them--or after them, we now have ISIS. Today, we 
are talking about Europe. I think we are likely to be talking 
about North Africa, maybe, 6 months or a year from now. Yemen 
is definitely on the horizon, I think, as well. And, we go 
through these accelerated peaks and valleys where we get really 
mobilized around counterterrorism, we go flush it out, and 
then, we get upset again a year later when it comes back.
    And so, what is our objective? And, what is our tolerance 
for risk with terrorism? I do not think we have a good handle 
on that, so we get to these emotional points, like now, where 
we react strongly and we take aggressive action. But, what are 
the four or five things we can do in counterterrorism, over the 
horizon, to sort of get this to a steadier state? I do not 
think there is any end to ISIS, because, I think, it will just 
be called something else 5 to 10 years from now--just like we 
were talking about al-Qaeda 10 years ago.
    And so, what do we want to achieve over the horizon? I 
would love to see the U.S. Government, holistically, come to 
terms with that. I feel, at a practitioner level, the NCTC, the 
FBI, and the Central Intelligence Agency (CIA) are all pursuing 
counterterrorism on a day-to-day basis. But, what sort of 
steady state do we want to achieve, I think, is the question. 
And, that is why we are reacting to Europe now and why we will 
react wherever it happens next.
    Chairman Johnson. Well, first of all, I could not agree 
more. We have to have a commitment to offense and to being 
relentless. We cannot ever back off--and this is going to be a 
generational problem. But, I think you have to do it step by 
step. As we were pointing out earlier, the fact that the 
caliphate exists--the fact that they hold that territory is 
incredibly dangerous. And, that is, certainly, one of the--
among many--first steps. We have to defeat that caliphate. We 
have to defeat ISIS.
    But, I agree with you, it already has metastasized. It 
already has spread. But, you have to cut it off at the head 
right now and then, continue to be relentless--not back off--
because it is going to be a long-term struggle.
    Again, I just want to thank all of you. This has been an 
extremely good hearing.
    The hearing record will remain open for 15 days, until 
April 20 at 5 p.m., for the submission of statements and 
questions for the record.
    This hearing is adjourned.
    [Whereupon, at 12:20 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
